   Report No. D-2007-133           September 28, 2007




Defense Civilian Pay System Controls Placed in Operation
 and Tests of Operating Effectiveness for the Period of
          July 1, 2006 Through June 30, 2007
Additional Information and Copies

The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. If you have questions or
would like to obtain additional copies of the draft report, contact Ms. Holly
Williams at (703) 325-3557 (DSN 221-3557) or Ms. Donna A. Roberts at (703)
428-1070 (DSN 328-1070).
Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
                             INSPECTOR GENERAL

                           DEPARTMENT OF DEFENSE

                            400 ARMY NAVY DRIVE

                       ARLINGTON, VIRGINIA 22202-4704





                                                                     September 28, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                 AND INFORMATION INTEGRATION)/DOD CHIEF
                 INFORMATION OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY

SUBJECT:	 Defense Civilian Pay System Controls Placed in Operation and Tests of
          Operating Effectiveness for the Period July 1, 2006, through June 30, 2007
          (Report No. D-2007-133)


We are providing this report for your information and use. No written response to this
report is required. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Holly Williams at (703) 325-3557 (DSN 221-3557) or Ms. Donna A. Roberts at
(703) 428-1070 (DSN 328-1070). The audit team members are listed inside the back
cover.

                              By direction of the Deputy Inspector General for Auditing:


                                     fJ~ O.IfI~
                                     fl. r: Paul J. Granetto, CPA
                                      Assistant Inspector General
                                      Defense Financial Auditing
                                                Service
Table of Contents 

Foreword                                                                      i


Section I

      Independent Service Auditor’s Report                                   1


Section II
      Description of DCPS Operations and Controls Provided by DFAS and 

         DISA                                                               13     


Section III 

      Control Objectives, Control Activities, and Tests of Operating 

         Effectiveness                                                      23

Section IV 

      Supplemental Information Provided by DFAS and DISA                   117 


Acronyms and Abbreviations                                                 121


Report Distribution                                                        123

                                       Foreword

This report is intended for the use of Defense Finance and Accounting Service (DFAS)
and Defense Information Systems Agency management, its user organizations, and the
independent auditors of its user organizations. Department of Defense personnel who
manage and use the Defense Civilian Pay System (DCPS) will also find this report of
interest as it contains information about DCPS general and application controls.

The Department of Defense, Office of Inspector General (DoD OIG) is implementing a
long range strategy to conduct audits of DoD financial statements. The Chief Financial
Officer’s Act of 1990 (P.L. 101-576), as amended, mandates that agencies prepare and
conduct audits of financial statements, which is key to achieving the goals of the Chief
Financial Officers Act.

The DCPS is a pay processing system used to pay DoD civilian employees, as well as
employees at several other Federal entities, including the Departments of Energy, Health
and Human Services, and the Executive Office of the President. As of June 30, 2006,
DCPS processed pay for approximately 798,000 employees.

This audit assessed controls over the DCPS processes at DFAS and DISA. This report
provides an opinion on the fairness of presentation, the adequacy of design, and the
operating effectiveness of key controls that are relevant to audits of user organization
financial statements. As a result, this audit precludes the need for multiple audits of
DCPS performed by user organizations to plan or conduct financial statement and
performance audits. This audit will also provide, in a separate audit report,
recommendations to management for correction of identified control deficiencies.
Effective internal control is critical to achieving reliable information for all management
reporting and decision making.




                                             i
Section I: Independent Service Auditor’s Report 





                       1

                              INSPECTOR GENERAL

                              DEPARTMENT OF DEFENSE

                                400 ARMY NAVY DRIVE

                           ARLINGTON, VIRGINIA 22202-4704

                                                                         SEP 28 7007

MEMORANDUM FOR UNDER SECRETARYOF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                 AND INFORMATION INTEGRATION)/DOD CHIEF
                 INFORMATION OFFICER
               DIRECTOR, DEFENSE FINANCEAND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSEINFORMATION SYSTEMS
                 AGENCY
SUBJECT: Defense Civilian Pay System Controls Placed in Operation and Tests of
         OperatingEffectivenessfor the Period July 1,2006, through June 30, 2007

We have examined the accompanying description of the general computerand
applicationcontrols related to the Defense Civilian Pay System (DCPS) (Section II). The
Defense Finance and Accounting Service-Headquarters (DFAS-I-IQ) provides
management control and coordination within DoD and has overall responsibility for
implementation and applicationof DCPS, DCPS is maintained and supported by the
DFAS technical support elements and the Defense InformationSystems Agency (DISA).
As such, the DCPS general computer and applicationcontrols are managed by both DISA
and DFAS. Our examination includedprocedures to obtain reasonable assurance about
whether (I) the accompanying description presents fairly, in all material respects, the
aspects of the controls at DFAS and DISA that may be relevant to a DCPS user
organization's internal controls as it relates to an audit of financial statements; (2) the
controls included in the description were suitably designed to achieve the control
objectives specified in the description, ifthose controls were complied with satisfactorily,
and nser organizations applied those aspects of internal controls contemplatedin the
design of the controls at DFAS and DISA; and (3) such controls had been placed in
operationas of June 30, 2007.

The control objectives were specified by the Department of Defense Office ofthe
InspectorGeneral (DoD OIG). We performed our examination in accordance with
American Institute of Certified Public Accountants standards and applicable financial
audit standards contained in Government AuditingStandards issued by the Comptroller
General of the United States, and included those procedures we considerednecessary in
the circumstances to obtain a reasonable basis for rendering our opinion.
The DCPS general computer control environmentincludes certain controls that are
pervasive across the DISA Defense Enterprise Computing Center (DECC)
Mechanicsburg data center that houses DCPS, These types of pervasive controls include:
   •	 overall security planning (e.g., DECC risk assessments, site security plans, security
      managementstructure);
   •	 general employee processes (e.g., background investigations, position and job
      descriptions);
   •	 group authentication;
   •	 physical security;
                                            3
           •	 network administration (for example, firewalls, network scans, remote
              access, network monitoring, use of mobile code);
           •	 incident response;
           •	 environmental controls; and
           •	 hardware maintenance.

The accompanying description does not include control objectives and control activity
descriptions related to these pervasive controls, and our examination did not extend to
these controls at the DISA DECC Mechanicsburg data center.

The accompanying description includes only those application control objectives and
related controls resident at the Charleston, South Carolina; Pensacola, Florida;
Indianapolis, Indiana; and Denver, Colorado Payroll Offices. DCPS processes
approximately 81 interface files from DoD and external systems. Examples of these
interface systems include the Defense Civilian Personnel Data System, Federal Reserve,
Thrift Savings Plan, and the Department of Treasury. The accompanying description
does not include control objectives and general and application controls related to the
systems that interface with DCPS. Our examination did not extend to the controls
resident at the National Security Agency (NSA) and Cleveland, Ohio Payroll Offices and
controls-related systems that interface with DCPS. Furthermore, because of the sensitive
nature of the pay information for personnel who work for the Executive Office of the
President (EOP), our examination did not extend to the controls over EOP payee
transactions.

DCPS began processing pay for the Department of Veterans Affairs (VA) payees on
September 16, 2006, at the Pensacola, Florida Payroll Office. The payroll processing
responsibilities were moved to the Indianapolis, Indiana Payroll Office as of May 13,
2007. Therefore, our examination only covered controls in place for VA payroll
processing at the Pensacola, Florida Payroll Office for the period of August 20, 2006, to
May 12, 2007, and only covered controls in place for the VA payroll processing at
Indianapolis, Indiana Payroll Office for the period of May 13, 2007, to June 30, 2007.

Our examination was conducted for the purpose of forming an opinion on the description
of the DCPS general and application controls at DFAS and DISA (Section II). Business
continuity plans and procedures at DFAS and DISA, as provided by DFAS and DISA
respectively and included in Section IV, is presented to provide additional information to
user organizations and is not a part of the description of controls at DFAS and DISA.
The information in Section IV has not been subjected to the procedures applied in the
examination of the aforementioned description of the controls at DFAS and DISA.
Accordingly, we do not express an opinion on the description of the business continuity
plans and procedures provided by DFAS and DISA.

In our opinion, the accompanying description of the DCPS general computer and
application controls at DFAS and DISA (Section II) presents fairly, in all material
respects, the relevant aspects of the controls at DFAS and DISA that had been placed in
operation as of June 30, 2007. Also, in our opinion, the controls, as described, are
suitably designed to provide reasonable assurance that the specified control objectives
would be achieved if the described controls were complied with satisfactorily, and users
applied those aspects of internal control contemplated in the design of the controls at
DFAS and DISA.


                                            4

In addition to the procedures that we considered necessary to render our opinion as
expressed in the previous paragraph, we applied tests to specified controls, listed in
Section III, to obtain evidence about their effectiveness in meeting the related control
objectives described in Section III during the period of July 1, 2006, through June 30,
2007. The specific control objectives, controls, and the nature, timing, extent, and results
of the tests are documented in Section III. This information has been provided to DCPS
user organizations and to their auditors to be taken into consideration, along with
information about the user organizations’ internal control environments, when making
assessments of control risk for such user organizations.

In performing our examination, we identified the following operating effectiveness
deficiencies related to the controls described in the “Description of DCPS Operations and
Controls Provided by DFAS and DISA” (Section II):

DCPS User Access

DFAS requires every DCPS user to complete a System Access Authorization Request
(SAAR) form. The SAAR form documents user access and must be signed by a
supervisor indicating that such access has been approved. Upon examining a selection of
42 forms for DCPS non-payroll office users, we identified:

   •	 1 form had a user type that did not match the user type in the list of DCPS Users
      by Database;
   •	 3 forms had authorization types that did not match the authorization type in the
      list of DCPS Users by Database;
   •	 3 forms were missing the DCPS Security Awareness Computer-Based Training
      (CBT) completion date;
   •	 1 form was missing the user’s signature;
   •	 1 form was missing the supervisor’s signature;
   •	 9 forms were missing the date of the supervisor’s signature;
   •	 5 forms were missing the security manager’s signature; and
   •	 10 forms were missing the date of the security manager’s signature.

Upon examining a selection of 42 forms for DCPS payroll office users, we identified:

   •	 6 forms had a user type that did not match the user type in the list of DCPS Users by
      Database;
   •	 3 forms had authorization types that did not match the authorization type in the list of
      DCPS Users by Database;
   •	 1 form was missing the DCPS Security Awareness CBT completion date;
   •	 2 forms were missing the supervisor’s signature;
   •	 12 forms were missing the date of the supervisor’s signature;



                                             5

   •	 2 forms were missing the security manager’s signature; and
   •	 4 forms were missing the date of the security manager’s signature.

As a result, the following control objectives that rely on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Controls prevent unauthorized system access to DCPS data.”

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA General Computer Control (GCC) locations are valid,
accurate, authorized, complete, [and] timely, support financial reporting requirements
and provide sufficient audit trails.”

Monitoring DCPS Error Reports

The Personnel Interface Invalid Report (PIIR) is a key control for monitoring and
resolving DCPS interface processing errors. This report contains rejections, suspensions,
or deletions between existing data in DCPS and data input via interface files.

We requested a sample of 45 PIIRs generated during the audit period at each payroll
office to confirm whether the reports were consistently annotated to indicate processing
exceptions were resolved.

At the DFAS Pensacola Payroll Office, 16 of the 45 PIIRs selected from the CP1 and
ZKA databases could not be located. Of the remaining 29 reports inspected, we
identified:
   •	 8 reports were missing the technician’s signature on the report;
   •	 8 reports were missing the date of when the report was annotated by the
      technician (WP 2600.19, “Summary” tab, Results, Exception box, cell G39); and
   •	 29 reports were inconsistently annotated with codes outlined in the SOP.
We confirmed that the requirement for technicians to annotate every transaction did not
take effect until May 27, 2007. Only one report in the random sample was generated
after this date (June 18, 2007). We scanned this report and noted that the technician who
annotated this report did not comply with the new requirement and did not annotate
transactions consistently. None of the 29 reports reviewed contained sufficient detail to
confirm resolution of all the errors in the reports.

At the DFAS Denver Payroll Office, we inspected a sample of 45 PIIRs for the OMA and
ZPA pay databases. For 5 of the 45 reports for the OMA database, the payroll office
technician had not annotated each line item describing the correction method. Of the
45 reports inspected for the ZPA database, 1 report could not be located at the Denver
Payroll office..

DCPS began processing pay for the Department of Veterans Affairs (VA) payees on
September 16, 2006, at the Pensacola, Florida Payroll Office. The payroll processing
responsibilities were moved to the Indianapolis, Indiana Payroll Office as of May 13,
2007. Therefore, our examination only covered controls in place for VA payroll
processing at the Pensacola, Florida Payroll Office for the period of August 20, 2006, to


                                             6

May 12, 2007, and only covered controls in place for the VA payroll processing at
Indianapolis, Indiana Payroll Office for the period of May 13, 2007, to June 30, 2007.

At the DFAS Indianapolis Payroll Office, we inspected a sample of 25 PIIRs. The ZPV
PIIR processing was performed at the Pensacola Payroll Office from August 20, 2006,
through May 12, 2007. The Pensacola Payroll Office was unable to supply PIIR
documentation for August 20, 2006, through January 19, 2007; therefore, testing could
not be conducted for this timeframe. Of the 26 PIIRs in the DFAS Indianapolis Payroll
Office sample, we observed:
   •   1 report could not be provided;
   •   15 reports were missing dates;
   •   1 report was missing a technician’s signature; and
   •   4 reports were not properly annotated.

In addition, we observed that the PIIR did not contain sufficient detail documenting
whether all errors were resolved.

As a result, the following control objective that relies on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Controls provide reasonable assurance that personnel and payroll data processed and stored
at the DFAS and DISA (GCC) locations are valid, accurate, authorized, complete, [and] timely,
support financial reporting requirements and provide sufficient audit trails.”

Visitor Access

At the DFAS Denver Payroll Office, visitors with a valid Common Access Card (CAC), law
enforcement badge, or military identification can enter the DFAS building and are not required
to sign in and out with security; therefore, access is not limited to authorized payroll office
personnel. We observed that data entry terminals were not located in physically secure locations
within locked rooms. The data entry terminals are located in an open space shared by non-
payroll personnel who may be able to access sensitive payroll information. In addition, we
inspected a sample of 45 visitor logs. Of the 45 visitor logs inspected, we observed that:
   •   14 logs did not have a telephone number recorded; and
   •   2 logs did not have an escort’s signature.

At the DFAS Indianapolis Payroll Office, visitors with a valid CAC, law enforcement badge, or
military identification can enter the DFAS building and are not required to sign in and out with
security; therefore, access is not limited to authorized payroll office personnel. We observed that
terminals that process payroll are located within a physically secure building; however, terminal
rooms are not locked and data entry terminals are connected to the system 24 hours a day, seven
days a week. The terminal rooms are located in shared spaces with other agencies and non-
payroll office personnel who may be able to access sensitive payroll information. In addition,
we observed that visitors to the DFAS Indianapolis Payroll Office must sign in and out with
authorized security personnel; however, once the visitor is inside the building there is no
requirement to display the visitor badge.



                                             7

As a result, the following control objective that relies on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Controls prevent unauthorized physical access to DCPS data.”


Limit and Reasonableness Checks

At the Indianapolis Payroll Office, we scanned the Less than $1 Greater than $5,000 Desk Guide
and confirmed it did not have documented procedures requiring a supervisor to review 10% of
the entries in the report, or the requirement to evidence the review with a signature or similar
notation.

As a result, the following control objective that relies on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA (GCC) locations are valid, accurate, authorized, complete,
[and] timely, support financial reporting requirements and provide sufficient audit
trails.”

Gross Pay Change Reasonableness Check

At the DFAS Charleston Payroll Office, we observed that large payroll increases
occurred in the pay periods ending March 17, 2007, and May 12, 2007, for the ZPD
payroll database and the ZFR payroll database respectively. DFAS Charleston stated that
these large increases were for annual pay bonuses that were paid in the appropriate pay
period. However, DFAS Charleston was unable to provide us documentation to confirm
the reasonableness of the large payroll increases. DFAS does not have a limit or
reasonableness check to identify variances at the gross payroll level.

As a result, the following control objective that relies on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA (GCC) locations are valid, accurate, authorized, complete,
[and] timely, support financial reporting requirements and provide sufficient audit
trails.”

Personnel/Payroll Reconciliation Reports

At the DFAS Pensacola Payroll Office, we observed that the Payroll Office does not send
a letter of completion signed by the supervisor to the personnel offices as documented in
the Standard Operating Procedure (SOP). We inspected 45 Personnel/Payroll
Reconciliation Reports. Of the 45 Personnel/Payroll Reconciliation Reports inspected,
one report for Thrift Savings Plan (TSP) changes, which is handled by the Support
Services Branch, could not be located. In addition, we observed that reports sent to the
Support Services Branch were not maintained with a cover sheet as required by the SOP
and that four reports were not completed within 10 working days as required by the SOP.

At the DFAS Charleston Payroll Office, we observed DFAS Charleston did not receive
any Personnel/Payroll Reconciliation Reports for three of the four quarters of our audit
period and received only four reports for another quarter. The most recent quarter reports
were supplied; however, we were unable to test them as the reconciliation process was
                                             8

not yet complete. We observed, for the reports that were supplied, that the Charleston
Payroll Office did not create cover sheets for the Personnel/Payroll Reports as required
by the DFAS entity-wide Personnel/Payroll Reconciliation SOP.

As a result, the following control objective that relies on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Controls provide reasonable assurance that personnel and payroll data processed and stored
at the DFAS and DISA (GCC) locations are valid, accurate, authorized, complete, [and] timely,
support financial reporting requirements and provide sufficient audit trails.”

“592” Reconciliation Reports

The “592” Reconciliation process is performed at the end of every pay period by Civilian Pay
Technicians to confirm all balancing spreadsheets have been received and all discrepancies have
been identified and/or corrected in order to release payroll files.

At the DFAS Pensacola Payroll Office, we inspected 26 592 reconciliation reports for both the
CP1 and ZKA databases. For the CP1 database, we observed that one of the reports did not have
a Certifying Officer’s signature. For the ZKA database, we observed that 2 of the 2812
Statements of Withholding forms were not signed and dated, and 3 of the 2812 Statements of
Withholding forms were not dated.

At the DFAS Charleston Payroll Office, we inspected 26 592 reconciliation reports for
the ZGT payroll database. We observed that one of the reports was corrected by the
preparer but not reconciled. Another report did not balance even when a supplemental
was prepared, and it did not have the 592 preparer’s signature. Three reports were
corrected but did not balance and did not have a corresponding supplemental worksheet.
When a correction to the 592 Report is necessary (that is, adjustments), a supplemental
592 is created to maintain the integrity of the original 592 Report. In addition, there is
inconsistency in the DFAS Charleston Payroll Center’s procedure for recording
adjustments to the 592 when the report is initially out of balance or does not include all of
the lines of accounting that are required for full reconciliation. We also observed that a
policy and/or procedure does not exist that requires the 592 reconciler to identify an
increase in total payroll or to document and include the reason for an increase in the 592
file when one occurs.

At the DFAS Indianapolis, Indiana Payroll Office, we inspected 26 592 reconciliation
reports for the ZPV payroll database. Of the 26 592 reconciliation reports, 5 were
processed by the VA; therefore, only 21 592 reports were tested. Of the 21 592
reconciliation reports selected, 2 Withholding Reports were not signed. In addition,
policies and procedures for reconciling the 592 reports are not consistent.

As a result, the following control objectives that rely on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Controls provide reasonable assurance that DCPS authorized users are restricted to access
only areas needed to complete their assigned responsibilities and controls maintain segregation
of duties.”




                                             9

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA (GCC) locations are valid, accurate, authorized, complete,
[and] timely, support financial reporting requirements and provide sufficient audit
trails.”

DCPS Interfaces

All DCPS interfaces should have a signed Memorandum of Agreement (MOA)
documenting key information, including impacted parties, interconnection requirements,
points of contact, security requirements, technical platform information, interface file
information, and designated signatories. However, 4 of 81 DCPS interfaces did not have
a documented MOA in place. In addition; DCPS data traveling within the NIPRNET
(unclassified DISA network) was not encrypted.
As a result, the following control objectives that rely on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“DFAS has classified all DFAS-owned assets according to criticality and sensitivity.”

“Data management and the disposition and sharing of data requirements are identified
in the Service Level Agreements.”

DCPS Password Configurations

All passwords for DCPS accounts are required to comply with Department of Defense
Instruction 8500.2 “Information Assurance (IA) Implementation” standards. However,
DCPS was not configured to enforce the use of complex passwords or to enforce the
requirement to change at least four characters of the password.

As a result, the following control objective that relies on this control may not have been
achieved during the period of July 1, 2006, through June 30, 2007:

“Passwords, tokens, or other devices are used to identify and authenticate users.”

In our opinion, except for the deficiencies in operating effectiveness noted in the
preceding paragraphs, the controls that were tested, as described in Section III, were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance
that the control objectives specified in Section III were achieved during the period of
July 1, 2006, through June 30, 2007.

The relative effectiveness and significance of specific controls at DFAS and DISA, and
their effect on assessments of control risk at user organizations, are dependent on their
interaction with the internal control environment and other factors present at individual
user organizations. We have not performed procedures to evaluate the effectiveness of
internal controls placed in operation at individual user organizations.

The description of the controls at DFAS and DISA is effective as of June 30, 2007, and
information about tests of their operating effectiveness covers the period of July 1, 2006,
through June 30, 2007. Any projection of such information to the future is subject to the
risk that, because of change, the description may no longer portray the system in
existence. The potential effectiveness of specific controls at DFAS and DISA is subject
to inherent limitations and, accordingly, errors or fraud may occur and not be detected.


                                            10

Furthermore, the projection of any conclusions, based on our findings, to future periods is
subject to the risk that: (1) changes made to the system or controls, (2) changes in processing
requirements, or (3) changes required because of the passage of time may alter the validity of
such conclusions.

This report is intended solely for use by DCPS management, its user organizations, and the
independent auditors of such user organizations.


                               By direction of the Deputy Inspector General for Auditing:


                                 p~ Q,                 /YlrMdv
                             fo(Paul J. Granetto, CPA
                              Assistant Inspector General
                           Defense Financial Auditing Service




                                            11

Section II: Description of DCPS Operations and Controls 

              Provided by DFAS and DISA 





                           13

II. Description of DCPS Operations and Controls Provided by
DFAS and DISA

A. Overview of DCPS
Purpose of DCPS

In 1991, DoD selected DCPS as its standard payroll system. DCPS is used by all DoD
activities paying civilian employees, except Local Nationals and those funded by Non-
appropriated Funds and Civilian Mariners. Before becoming the DoD-wide civilian pay
system, DCPS was the Navy civilian pay system, which had been in operation since
1988. DFAS began paying the Executive Office of the President (EOP) in 1998. The
2001 President’s Management Agenda e-Payroll initiative established Federal payroll
providers to service the entire executive branch of the Federal Government. DFAS was
selected as one of those providers. DFAS began processing payroll for the Department of
Energy (DOE) in 2003, the Department of Health and Human Services (HHS) in 2005,
and the Environmental Protection Agency (EPA), Department of Veterans Affairs (VA)
and the Broadcast Board of Governors (BBG) in 2006. As of June 30, 2006, DCPS
currently processes pay for approximately 798,000 employees.

The DCPS program mission is to process payroll for DoD civilian employees in
accordance with existing regulatory, statutory, and financial information requirements
relating to civilian pay entitlements and applicable policies and procedures. The DoD
civilian pay program must satisfy the complex and extensive functional, technical, and
interface requirements associated with the DoD civilian pay function. The functional
areas include: employee data maintenance; time and attendance; leave; pay processing;
deductions; retirement processing; debt collection; special actions; disbursing and
collection; reports processing and reconciliation; and record maintenance and retention.
DCPS provides standard interface support to various accounting, financial management,
and personnel systems. From a life-cycle perspective, DCPS is in the maintenance phase,
with system changes mainly resulting from legislative and functional requirements.

Currently, DFAS is participating in a Base Realignment and Closure (BRAC)
transformation that impacts the DCPS Payroll Offices. Approximately 250 payroll
processing personnel at 3 DFAS Payroll Offices located in Pensacola, Florida;
Charleston, South Carolina; and Denver, Colorado use DCPS. Approximately 150
processing personnel will use DCPS at the enduring payroll office sites located in
Cleveland, Ohio, and Indianapolis, Indiana. DCPS is also used at NSA. ∗ Additional
users include Customer Service Representatives (CSRs) at customer activities and sites.
Four of the five DFAS payroll offices process payroll for DoD civilians. The Pensacola
Payroll Office processes EOP payroll. The Charleston Payroll Office processes DOE,
HHS, and BBG payroll. The Indianapolis Payroll Office processes VA payroll, and the
Denver Payroll Office processes EPA payroll. Migration completion of all payroll
processing is targeted for June 2008.




∗The NSA payroll office is not included in the scope of this “Description of DCPS Operations and
Controls Provided by DFAS and DISA”.

                                                  15

DCPS Support Functions
The DFAS Standards and Compliance Division (under the direction of the DFAS Director)
provides high-level management control and coordination within DoD and for DCPS external
customers. The Civilian Pay Systems Management Directorate (under the direction of the DFAS
Chief Information Officer) has overall daily responsibility for application, operation,
interpretation and implementation of DCPS. In addition, those offices are responsible for
coordinating with external users and new customers. Civilian Pay Systems Management
Directorate is responsible for requirements management, functional analysis, information
assurance, and user documentation processes.

The Technology Services Engineering Organization Pensacola (TSOPE) provides DCPS
software engineering, production support, and customer service. Within TSOPE, several groups
provide DCPS support. The Software Engineering Division provides technical design,
programming, unit testing, and system documentation. The Software Test and Evaluation
Division performs integration testing and evaluation processes. The Project Support Division
provides system software, telecommunication, computer resource tools, and database support.
DCPS Software Quality Assurance monitors the software engineering process and provides
recommendations for improvement. The Systems Support Division provides configuration
management, release management, implementation status, and customer support. DCPS is
maintained and executed on a DISA mainframe platform at DECC SMC Mechanicsburg,
Pennsylvania.

DCPS Systems Architecture

A two-tiered architecture comprises DCPS:

   •	 mainframe hardware and software components - used as a repository for collecting and
      accumulating data, and providing centralized, biweekly processing of civilian pay and its
      attendant functions (for example, electronic funds transfer, generation of leave and
      earnings statements); and
   •	 remote user/print spooler hardware and software - used to collect and/or pre-process data
      at customer sites, provide connectivity to DCPS mainframe components, and support
      printing of mainframe-generated outputs (for example, reports, timesheets) at customer
      locations. The components are largely customer-owned and operated, and include local
      area networks (LANs), personal computers, and a diverse assortment of printers and
      software that operates and connects the networks, computers, and printers. DFAS
      maintains a limited number of mid-tier (minicomputer) systems at selected DFAS sites to
      handle specialized printing requirements (for example, paychecks). Other offloaded print
      services, such as bulk printing for DCPS Payroll Offices and printing of Leave and
      Earnings Statements, are performed on PC/workstation hardware maintained by the
      Document Automation & Production Service (DAPS) located at various sites in the
      United States and overseas.
The two tiers of the DCPS architecture are connected via DoD-maintained networks composed
of Internet Protocol (IP)-based systems for example, Non-Classified Internet Protocol Router
Network) and Systems Network Architecture-based (leased line) services. Those networks
connect DCPS to a wide variety of external, non-DCPS sites (mainframes, mid-tiers, and PCs)
that supply or exchange data with DCPS, mainly through electronic file transfers, on a regular
basis. Examples of external interface sites include the Defense Civilian Personnel Data System,
Thrift Savings Plan (TSP), Department of the Treasury, and non-DoD users such as DOE, EPA,
EOP, HHS, BBG and VA.


                                            16

The main technical components of DCPS include the following attributes:
       •	 DCPS is housed in a separate logical domain on an IBM z9 mainframe
          computer located at DECC Mechanicsburg;

       •	 the IBM mainframe operating system software is Z/OS release 1.7;

       •	 DCPS is written in Common Business Oriented Language II;

       •	 first point of entry security protection mechanisms are provided by Access
          Control Facility 2 (ACF2);

       •	 DECC Mechanicsburg provides four web servers that service all applications
          that support DCPS. Those servers accept the users’ secure web requests by
          supplying a menu screen with options for each application to the DCPS
          LOGON SCREEN, where individuals enter their ACF2 login user
          identification (ID) and passwords; and

       •	 third-party software packages are used for DCPS process scheduling and
          monitoring, tax calculations, and mailing address verification.

The payroll offices and associated Customer Service Representatives (CSRs) have access
to DCPS via dedicated leased lines, various DoD networks, and through Secure Web
Access. Secure Web Access enables secure transaction processing across the Non-
Classified Internet Protocol Router Network. IBM’s Host On Demand was used to
establish the Secure Web Access infrastructure. DCPS users interact directly with the
DCPS application through “3270” emulation using Personal Computer/Advanced
Technology keyboard mapping terminals or terminal simulation programs for
communication with DCPS. This permits application-defined formatted screens to be
displayed with protected static text and unprotected fields for data entry. The payroll
offices are structured in accordance with DFAS standard staffing policy and conduct
business using standard operating and support procedures. They operate on a 24-hour
basis to provide payroll service to customers located in various time zones and are
responsible for the full range of pay processing functions and services. As circumstances
dictate, the three payroll offices serve as operational back-up sites for each other when
contingency procedures are executed by DFAS.

DoD Instruction 8500.2, “Information Assurance Implementation,” February 6, 2003,
(DoD I 8500.2) identifies specific control requirements DoD systems should achieve
based on their designated Mission Assurance Category (MAC). The DCPS application
Authority to Operate, dated July 29, 2005, is on file with the DFAS Chief Information
Officer. According to the current DCPS SSAAs, as of June 30, 2005, the MAC level for
the DCPS application is “MAC III” and its supporting enclave at DISA DECC
Mechanicsburg is “MAC II.”

DCPS Data Flow

The figure below depicts the flow of data to and from DCPS. DCPS customers and
technicians input data, including master employee and time and attendance logs. DCPS
outputs data to multiple systems and entities, including financial reporting entities, the
automated disbursing system, and data storage.



                                            17

                                                                       DCPS Interfaces



                                   Defense Automated                                            Voluntary Benefit
                                                                      ePayroll                                                OPM
                                     Printing Service             Customer Systems
                                                                                                     Portal
                                                                                                TLC?FSA?V&D               (RITS, EHRI)

                             Personnel                                                                                                             myPay
                              Systems                                         National Guard
                             (DCPDS)                                          Assoc of the US           National Guard
                                                                                (NGAUS)                Dual Comp Office
                            (PeopleSoft)
                                                                                                                                                     Integrated
                                                                                                                                                    Garnishment
                           Federal                                                                                                                     System
                          Reserve                                                                                                                       (IGS)
                         Bank (FRB)             Nat’l Treas Emp
                                                Union (NTEU)                                                                      FEHB Clearing-           National
                                                                                                                                   House Project
                                                                                                                                                           Finance
                                                                                                                                                           Center
                          Automated
                          Disbursing
                         System (ADS)
                                                                                      DCPS                                                               Defense Manpower
                                                                                                                                                        Data Center (DMDC)

                                                Imaging


                    DFAS Denver                                                                                                                             Defense Corporate
                   Bonds/Dept Acct                                                                                                                          Data base




                       DFAS Indy                                                                                                                             Treasury
                   Acct edit/Dept Acct                                                                                                                       IRS/SSA
                                                                                        Army Audit


                      DFAS Columbus                                                                                                                       State
                        Dept Acct                                                                                                                      Tax Entities
                                                                    Field Level                      T&A SDA (19)
                                         DFAS Cleveland            Accounting (26)
                                           Dept Acct                                                                                 Local Tax
                                                                                                                                      Entities




Overview of System Interfaces

DCPS is a combination of on-line and batch programs that support the requirements of a
bi-weekly payroll process for civilian employees in the Federal Government based on data feeds
from numerous personnel, accounting, and time and attendance systems. Transactions to update
employee data, adjust leave balances and payments, and report time and attendance may be input
daily to spread the online workload and to obtain labor data. However, the focal point of the
system is the bi-weekly process. Non bi-weekly process functions occur monthly, quarterly,
annually, or as required, and are in support of or a result of, multiple bi-weekly pay cycles.
DCPS supports a standard personnel interface, decentralized time and attendance reporting, and
the CSR structure.

DCPS accepts input from three primary areas: CSRs, timekeepers, and personnel offices. DCPS
receives or creates approximately 81 interface files that, among other functions:

   •   update personnel information;
   •   upload time and attendance data;
   •   download information for checks to be printed;
   •   report accounting information to the Department of the Treasury;
   •   reconcile enrollment information with health care providers; and
   •   download general accounting information to DoD agencies.



                                                                           18

Automatic electronic file transfer directly to and from the host mainframe computer is
preferred for input and output file interfaces. Output files are automatically transmitted
to sites and activities using common file transfer protocols, by way of communication
lines of files written to magnetic tape at the host (using data in File Transfer Tables).
Interface partners must provide File Transfer Table data to the TSOPE for table updates.
For files not automatically transferred, the activity receiving DCPS data is responsible for
accessing the host computer to retrieve (“pull”) the output file(s) from the host. In
addition, the activity creating payroll data is responsible for developing and sending a
DCPS input file by secure means to the processing center supporting the payroll office.
The payroll activities and the submitting activities establish mutually agreeable schedules
to ensure timely receipt of data necessary to support DCPS payroll processing. TSOPE is
responsible for executing and monitoring interface processing, as well as resolving
interface processing errors or problems.

B. Control Environment
DCPS Management Oversight

The DFAS Information and Technology Directorate is responsible for reviewing and
approving DCPS security policy, and the DCPS certification and accreditation plan, and
granting DCPS authority to operate. TSOPE provides not only DCPS software
engineering support, but also production support and customer service. DCPS is
maintained and executed on a DISA mainframe platform at DECC Mechanicsburg,
Pennsylvania. DECC Mechanicsburg is part of the Center for Computing Services within
the Global Information Grid Combat Support Directorate, which is a Strategic Business
Unit within DISA. DFAS and DISA have documented DCPS support services provided
by DISA in a service-level agreement that is reviewed by both agencies on an annual
basis. DFAS and DISA have documented policies and procedures describing their
respective roles and responsibilities in supporting payroll functions. DFAS and DISA are
Defense agencies that report to the Office of the Secretary of Defense.

Personnel Policies and Procedures

DFAS Payroll Offices and TSOPE. Payroll office employees and contractors are
required to review applicable administrative orders, policies, and procedures with the
Human Resource Office and must complete appropriate forms to gain access to DFAS
systems. New employees must meet with the Information Security (IS) Manager. The IS
Manager is responsible for: (1) providing basic system security awareness training,
(2) securing civilians’ and contractors’ signatures on an Automated Data Processing
Security Awareness disclosure form, (3) identifying who an employees’ Terminal Area
Security Officer (TASO) is and what the TASO responsibilities are, and (4) notifying
appropriate personnel when personnel actions occur. Those actions include providing
access to or immediately terminating employee or contractor access to DFAS automated
information system resources. The payroll offices and TSOPE facilities require a
background check before a candidate can become an employee.

DECC Mechanicsburg. The security manager is responsible for processing new employees and
contractors who are given access to DECC Mechanicsburg facilities. All contractors and
employees are required, at a minimum, to have a secret clearance and a positive National Agency
Check. For employees, the security manager coordinates with the personnel office and for
contractors, the security manager coordinates with the contracting officer. For contractors, the
security manager is responsible for confirming that all contractors are assigned to a valid
contract, and have been approved to work at DECC Mechanicsburg.
                                            19

All new employees are required to sign DISA Form 312, “Classified Information Nondisclosure
Agreement,” which serves as a nondisclosure agreement for sensitive and classified information.
When employees are terminated, DISA requires them to sign the same Form 312 to confirm their
understanding of the requirements with which they must comply. New employees and
contractors are required to complete a DD Form 2875, “System Authorization Access Request”
to gain access to DISA systems. The security manager is responsible for processing those forms
and confirming that the person requesting access has the proper clearance for the level of access
requested. For contractors, the security manager confirms the length of the contract and
determines when system accounts should expire. All new employees and contractors must
complete security awareness training.

C. Monitoring
Management and supervisory personnel at DFAS and DISA monitor the performance quality and
internal control environment as a normal part of their activities. DFAS and DISA have
implemented a number of management, financial, and operational reports that help monitor the
performance of payroll processing, as well as the DCPS system. These reports are reviewed
periodically and action is taken as necessary. All procedural problems and exceptions to normal
and scheduled processing are logged, reported, and resolved in a timely manner, with remedial
action taken as necessary. In addition, several organizations within DoD perform monitoring
activities associated with DCPS-related internal controls.

DISA Office of Inspector General. The DISA Office of the Inspector General (OIG) is an
independent office within DISA that conducts internal audits, inspections, and investigations.
DISA-related Components that support DCPS are part of the DISA OIG audit universe and are
subject to audits, inspections, and investigations conducted by this office.

Field Security Operations. The Field Security Operations (FSO) unit conducts periodic System
Readiness Reviews of DISA systems to determine whether those systems comply with
documented Standard Technical Implementation Guides (STIGs). The DCPS system
components maintained by DISA are subject to FSO reviews. The FSO is independent of the
DECC SMC Mechanicsburg management and does not maintain or configure DCPS.

DoD OIG. Congress established the DoD OIG under the Inspector General Act of 1978
to conduct and supervise audits and investigations related to DoD programs and
operations. The DoD OIG reports directly to the Secretary of Defense and is independent
of DFAS and DISA. DCPS is part of the DoD OIG audit universe and is subject to
financial, operational, and information technology audits, reviews, and special
assessment projects.

Certification and Accreditation. DoD Instruction 5200.40, “Department of Defense
Information Technology Security Certification and Accreditation Process (DITSCAP),”
December 30, 1997, established a standard Department-wide process, set of activities,
general tasks, and management structure to certify and accredit information systems that
will maintain the information assurance and security posture of the Defense Department
information infrastructure throughout the life cycle of each system. The certification
process is a comprehensive evaluation of the technical and non-technical security features
of an information system and other safeguards to establish the extent to which a particular
design and implementation meet[s] specified security requirements and covers physical,
personnel, administrative, information, information systems, and communications
security. The accreditation process is a formal declaration by the designated approving
authority that an information system is approved to operate in a particular security mode
using a prescribed set of safeguards at an acceptable level of risk.
                                            20

DCPS is subject to the requirements of DITSCAP and must meet all DITSCAP
certification and accreditation requirements throughout its lifecycle. As part of the DCPS
DITSCAP process, DFAS and DISA have developed separate SSAAs for the DCPS
application and for the system enclave within DISA that supports the application. Each
SSAA is a living document that represents an agreement between the designated
approving authority, certifying authority, user representative, and program manager.
Among other items, the DCPS SSAA documents DCPS’ mission description and system
identification, environment description, system architecture description, system class,
system security requirements, organizations and resources, and DITSCAP plan. On a
periodic basis, the system security officer must verify and validate DCPS’ compliance
with the information in the SSAA by conducting vulnerability evaluations, security
testing and evaluation, penetration testing, and risk management reviews. The DCPS
application SSAA was issued on June 30, 2005, and is valid for 3 years. The DECC
SMC Mechanicsburg enclave SSAA was issued on February 27, 2006, and is valid for
3 years. The DCPS application Authority to Operate (ATO), dated 29 July 2005, is on
file with the GS4B3 Information Assurance Manager. The DCPS ATO will be included
in the annual SMC Mechanicsburg Unclassified Enclave SSAA package update that is
submitted to the DISA Designated Approval Authority (DAA).

D. Risk Assessment
The DITSCAP process, discussed in subsection C above, includes several activities that
enable DFAS and DISA to assess risks associated with DCPS. The DCPS application
and enclave SSAAs document threats to DCPS and its supporting technical environment.
The SSAAs also contain residual risk assessments that document vulnerabilities noted
during DCPS tests and analyses. The information contained in the SSAAs is updated on
a periodic basis. Personnel from DFAS TSOPE and DECC SMC Mechanicsburg
participate in risk assessment activities.

E. Information and Communication
DCPS is the information system used to process civilian payroll for DoD and payroll
customers from other Federal entities including the DOE, EPA, EOP, HHS, BBG and
VA. Payroll processing involves approximately 81 data files that interface with DCPS.
Those interfaces are linked to other DoD financial systems, as well as external systems.
The majority of the interfaces is automated and must conform to documented interface
specifications developed by the TSOPE.

The TSOPE is responsible for executing and monitoring all DCPS automated interfaces.

The support relationship between DFAS and DECC SMC Mechanicsburg is documented through
a service level agreement that includes various DFAS and DECC SMC Mechanicsburg points of
contact and liaisons that should be used when DCPS issues arise. DECC SMC Mechanicsburg
has assigned a customer relationship manager to work with TSOPE to resolve any DCPS
processing problems or concerns.

Directors and managers from TSOPE and the SMC meet weekly to discuss DCPS processing
issues. The Configuration Control Board, composed of customer agencies, SMC, TSOPE and
payroll office personnel, review and approve functional and systemic changes to DCPS. The
payroll offices have help desk functions to identify and track DCPS user issues and problems and
to communicate those issues and problems to SMC for resolution.


                                           21

F. Control Activities
The DCPS control objectives and related control activities are included in Section III of this
report, “Control Objectives, Control Activities, and Tests of Operating Effectiveness,” to
eliminate the redundancy that would result from listing them in this section and repeating them
in Section III. Although the control objectives and related controls are included in Section III,
they are, nevertheless, an integral part of the description of controls.

G. User Organization Control Considerations
DFAS and DISA control activities related to DCPS were designed with the assumption that
certain controls would be placed in operation at user organizations. This section describes some
of the controls that should be in operation at user organizations to complement the controls at
DFAS and DISA.

User organizations should have policies and procedures in place to ensure that:

   •	 the servicing payroll office is notified of all terminated employees with access to DCPS;

   •	 the local human resource office is notified of all terminated employees to ensure that
      those employees are removed from the master employee record in a timely manner;

   •	 all time entered by timekeepers is approved and authorized by appropriate user 

      organization management; 


   •	 all master employee records created represent valid employees;

   •	 all changes to the master employee record are approved by appropriate user organization
      personnel prior to payroll processing;

   •	 segregation of duties exists between those at the user organization who enter time and
      those who enter or change Master Employee Records;

   •	 if an alternative to the real Social Security Number (SSN) (“pseudo SSN”) is created, the
      created number has been authorized by appropriate user organization personnel and, if
      necessary, is accurately tied to a primary and valid SSN;

   •	 user organization managers review the “Control of Hours” and other payroll-related
      reports for appropriateness and accuracy;

   •	 all invalid time entry interface feeds are reviewed and processed by appropriate user
      organization personnel in a controlled manner; and

   •	 all invalid personnel record interface feeds are resolved in the interface system by user
      organization personnel with appropriate approval by user organization management.




                                            22

Section III: Control Objectives, Control Activities, and Tests 

                 of Operating Effectiveness 





                              23

III. Control Objectives, Control Activities, and Tests of
     Operating Effectiveness

A. Scope Limitations
The control objectives documented in this section were specified by the DoD OIG. As
described in the prior section (Section II), DCPS interfaces with many systems. The
controls described and tested within this section of the report are limited to those
computer systems, operations, and processes directly related to DCPS itself. We did not
perform any procedures to evaluate the integrity and accuracy of the data contained in
DCPS. The controls related to the source and destination systems associated with the
DCPS interfaces are specifically excluded from this review. In addition, we did not
perform procedures to evaluate the effectiveness of input, processing, and output controls
within those interface systems. However, we did perform procedures to evaluate DCPS
controls concerning interface input and output.




                                           25

B. Control Objectives, Control Activities, and Tests of Operating Effectiveness

Application Control Objectives, Control Activities, Tests Performed, and Results of Testing


    No.        Control Objective                   Control Activities                       Tests Performed                    Results of Testing


1         Controls prevent unauthorized   1.1 - Policies and procedures are       Inquired with appropriate personnel      DFAS-Pensacola
          physical access to DCPS data.   documented to describe that personnel   and read policies and procedures to
                                                                                                                           No relevant exception
                                          payroll records and other sensitive     confirm that personnel payroll records
                                                                                                                           noted.
                                          information are maintained and          and other sensitive information is
                                          disposed of in accordance with          maintained and disposed of in            DFAS-Charleston
                                          Government-wide and agency-specific     accordance with Government-wide
                                                                                                                           No relevant exception
                                          guidelines.                             and agency-specific guidelines.
                                                                                                                           noted.
                                                                                                                           DFAS-Denver
                                                                                                                           No relevant exception
                                                                                                                           noted.
                                                                                                                           DFAS-Indianapolis
                                                                                                                           No relevant exception
                                                                                                                           noted.
                                          1.2 - All documents and storage media   Inquired with appropriate personnel      DFAS Pensacola
                                          are stored in physically and            and observed storage processes to
                                                                                                                           We noted during an
                                          environmentally secure containers.      confirm documents and storage media
                                                                                                                           observation of the
                                                                                  are stored properly in environmentally
                                                                                                                           document storage
                                                                                  secure containers.
                                                                                                                           warehouse, that one of the
                                                                                                                           cipher-locked doors was
                                                                                                                           propped open.
                                                                                                                           We noted electronic
                                                                                                                           records, such as CDs, are
                                                                                                                           stored in the locked
                                                                                                                           Pensacola Payroll Office;



                                                                        26

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       however, are not required
                                                                       to be locked in a cabinet.
                                                                       DFAS Management
                                                                       indicated that the testing
                                                                       exceptions reflected office
                                                                       closure preparations as a
                                                                       result of BRAC and were
                                                                       not significant enough to
                                                                       qualify the control
                                                                       objective as these storage
                                                                       areas are located within the
                                                                       secure Payroll Office
                                                                       locations.
                                                                       DFAS-Charleston
                                                                       We noted during an
                                                                       observation of the
                                                                       document storage
                                                                       warehouse that access to
                                                                       the document storage
                                                                       warehouse was through
                                                                       swinging doors, which
                                                                       permit unauthorized
                                                                       physical access to
                                                                       personnel payroll records.
                                                                       The document storage
                                                                       warehouse is shared by
                                                                       business lines other than
                                                                       the payroll office.
                                                                       We noted electronic
                                                                       records such as tapes,
                                                                       microfilm, and CDs have
                                                                       not been used for 4 years


                                               27

No.   Control Objective             Control Activities                          Tests Performed                     Results of Testing


                                                                                                                and are stored in an
                                                                                                                unlocked room in the
                                                                                                                Charleston Payroll Office,
                                                                                                                which is accessible to all
                                                                                                                Civilian Payroll
                                                                                                                employees.
                                                                                                                DFAS Management
                                                                                                                indicated the testing
                                                                                                                exceptions reflected office
                                                                                                                closure preparations as a
                                                                                                                result of BRAC and were
                                                                                                                not significant enough to
                                                                                                                qualify the control
                                                                                                                objective as these storage
                                                                                                                areas are located within the
                                                                                                                secure Payroll Office
                                                                                                                locations.
                                                                                                                DFAS-Denver
                                                                                                                No relevant exception
                                                                                                                noted.
                                                                                                                DFAS-Indianapolis
                                                                                                                No relevant exception
                                                                                                                noted.


                          1.3 - All visitors to the Payroll Office   Inquired with appropriate personnel,       DFAS-Pensacola
                          must sign in and out with the              obtained and inspected a sample of
                                                                                                                No relevant exception
                          authorized security personnel.             45 visitor logs to the payroll office to
                                                                                                                noted.
                                                                     confirm visitors must sign in with
                                                                     authorized security personnel.             DFAS-Charleston
                                                                                                                No relevant exception
                                                                                                                noted.

                                                           28

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       DFAS-Denver
                                                                       Visitors with a valid
                                                                       Common Access Card
                                                                       (CAC), law enforcement
                                                                       badge, or military
                                                                       identification can enter the
                                                                       DFAS building and are not
                                                                       required to sign in and out
                                                                       with security; therefore,
                                                                       access to the payroll office
                                                                       is not limited to authorized
                                                                       personnel.
                                                                       Of the 45 visitor logs
                                                                       inspected:
                                                                       •   14 out of 45
                                                                           Visitor/Employee
                                                                           Register Logs did not
                                                                           have a telephone
                                                                           number recorded.
                                                                       •   2 out of 45
                                                                           Visitor/Employee
                                                                           Register Logs did not
                                                                           have an escort’s
                                                                           signature.
                                                                       DFAS-Indianapolis
                                                                       We confirmed visitors to
                                                                       the DFAS Indianapolis
                                                                       Payroll Office must sign in
                                                                       and out with authorized
                                                                       security personnel;
                                                                       however, once the visitor


                                               29

No.   Control Objective             Control Activities                        Tests Performed                 Results of Testing


                                                                                                          is inside the building there
                                                                                                          is no requirement to
                                                                                                          display the visitor’s badge.
                                                                                                          Additionally, visitors with
                                                                                                          a valid Common Access
                                                                                                          Card (CAC), law
                                                                                                          enforcement badge, or
                                                                                                          military identification can
                                                                                                          enter the DFAS building
                                                                                                          and are not required to
                                                                                                          sign in and out with
                                                                                                          security; therefore, access
                                                                                                          to the payroll office is not
                                                                                                          limited to authorized
                                                                                                          personnel.


                          1.4 - All terminals and payroll records   Inquired with appropriate personnel   DFAS-Pensacola
                          are located in physically secured         and observed the terminal rooms to
                                                                                                          No relevant exception
                          locations.                                confirm they are physically secure.
                                                                                                          noted.
                                                                                                          DFAS-Charleston
                                                                                                          No relevant exception
                                                                                                          noted.
                                                                                                          DFAS-Denver
                                                                                                          We noted data entry
                                                                                                          terminals were not located
                                                                                                          in physically secure
                                                                                                          locations within locked
                                                                                                          rooms. The data entry
                                                                                                          terminals are located in an
                                                                                                          open space shared by non-
                                                                                                          payroll personnel who may

                                                          30

No.   Control Objective            Control Activities                      Tests Performed                 Results of Testing


                                                                                                       still be able to access
                                                                                                       sensitive payroll
                                                                                                       information.
                                                                                                       DFAS-Indianapolis
                                                                                                       Based on the procedures
                                                                                                       performed, the terminals
                                                                                                       are located within a
                                                                                                       physically secure building;
                                                                                                       however, terminal rooms
                                                                                                       are not located in
                                                                                                       physically secured
                                                                                                       locations within locked
                                                                                                       rooms, and data entry
                                                                                                       terminals are connected to
                                                                                                       the system 24 hours a day,
                                                                                                       7 days a week. The
                                                                                                       terminals are located in
                                                                                                       shared spaces with other
                                                                                                       agencies and non-payroll
                                                                                                       office personnel,
                                                                                                       increasing the risk of
                                                                                                       unauthorized access to
                                                                                                       sensitive payroll
                                                                                                       information.

                          1.5 - Users dispose of personnel and   Inquired with appropriate personnel   DFAS-Pensacola
                          payroll records in accordance with     and observed destruction bins to
                                                                                                       No relevant exception
                          Government-wide and agency-specific    confirm that payroll records are
                                                                                                       noted.
                          guidelines.                            disposed of in accordance with
                                                                 Government-wide and agency-           DFAS-Charleston
                                                                 specific guidelines.
                                                                                                       No relevant exception
                                                                                                       noted.



                                                        31

No.   Control Objective             Control Activities                       Tests Performed                   Results of Testing


                                                                                                            DFAS-Denver
                                                                                                            No relevant exception
                                                                                                            noted.
                                                                                                            DFAS-Indianapolis
                                                                                                            No relevant exception
                                                                                                            noted.
                          1.6 - Each terminal automatically        Inquired with appropriate personnel      DFAS-Pensacola
                          disconnects from the system when not     and observed system inactivity to
                                                                                                            No relevant exception
                          used after a specified period of time.   confirm that each terminal
                                                                                                            noted.
                                                                   automatically disconnects from the
                                                                   system when not used after a specified   DFAS-Charleston
                                                                   period of time.
                                                                                                            No relevant exception
                                                                                                            noted.
                                                                                                            DFAS-Denver
                                                                                                            No relevant exception
                                                                                                            noted.
                                                                                                            DFAS-Indianapolis
                                                                                                            No relevant exception
                                                                                                            noted.
                          1.7 - When terminals are not in use,     Inquired with appropriate personnel      DFAS-Pensacola
                          terminal rooms are locked, or the        and observed facility to confirm that
                                                                                                            No relevant exception
                          terminals are capable of being           when terminals are not in use,
                                                                                                            noted.
                          secured.                                 terminal rooms are locked, or the
                                                                   terminals are capable of being           DFAS-Charleston
                                                                   secured.
                                                                                                            No relevant exception
                                                                                                            noted.




                                                          32

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       DFAS-Denver
                                                                       We noted data entry
                                                                       terminals were not located
                                                                       in physically secure
                                                                       locations within locked
                                                                       rooms. The data entry
                                                                       terminals are located in an
                                                                       open space shared by non-
                                                                       payroll personnel who may
                                                                       be able to access sensitive
                                                                       payroll information.
                                                                       DFAS-Indianapolis
                                                                       Based on the procedures
                                                                       performed, the terminals
                                                                       are located within a
                                                                       physically secure building;
                                                                       however, terminal rooms
                                                                       are not located in
                                                                       physically secured
                                                                       locations within locked
                                                                       rooms and data entry
                                                                       terminals are connected to
                                                                       the system 24 hours a day,
                                                                       7 days a week. The
                                                                       terminals are located in
                                                                       shared spaces with other
                                                                       agencies and non-payroll
                                                                       office personnel increasing
                                                                       the risk of unauthorized
                                                                       access to sensitive payroll
                                                                       information.




                                               33

    No.        Control Objective                    Control Activities                        Tests Performed                    Results of Testing


2         Controls prevent unauthorized   2.1 – The ability to view, modify, or     Inquired with appropriate personnel      All Payroll Offices
          system access to DCPS data.     transfer information contained in the     and inspected a sample of 45 System
                                                                                                                             Of the 45 SAARs selected
                                          payroll master files is restricted to     Access Authorization Request forms
                                                                                                                             for testing, three
                                          authorized personnel.                     (i.e., SAAR) to confirm the following:
                                                                                                                             employees were no longer
                                          Each operator is required to have a       • The payroll master file and output     DCPS users and were not
                                          completed and authorized                  is restricted to authorized personnel;   active in the system;
                                          authorization form before being                                                    therefore, forms could not
                                                                                    • Each operator is authorized before
                                          granted access to the system.                                                      be provided for these
                                                                                    being granted access to the system;
                                                                                                                             users.
                                          Authorization profiles over users limit   and
                                          what transactions data entry personnel                                             Of the 42 non-payroll
                                                                                    Confirmed user profiles limit the type
                                          can enter.                                                                         SAAR forms inspected,
                                                                                    of transactions data entry personnel
                                                                                                                             noted the following:
                                                                                    can enter into DCPS.
                                                                                                                             •   1 of 42 forms
                                                                                                                                 indicated a user type
                                                                                                                                 which did not match
                                                                                                                                 the user type in the list
                                                                                                                                 of DCPS users by
                                                                                                                                 database;
                                                                                                                             •   3 of 42 forms
                                                                                                                                 indicated
                                                                                                                                 authorization types
                                                                                                                                 which did not match
                                                                                                                                 the authorization type
                                                                                                                                 in the list of DCPS
                                                                                                                                 users by database;
                                                                                                                             •   3 of 42 forms were
                                                                                                                                 missing the DCPS
                                                                                                                                 Security Awareness
                                                                                                                                 (WBT) completion
                                                                                                                                 date;




                                                                          34

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       •   1 of 42 forms was
                                                                           missing the user’s
                                                                           signature;
                                                                       •   1 of 42 forms was
                                                                           missing the
                                                                           supervisor’s signature;
                                                                       •   9 of 42 forms were
                                                                           missing the date of the
                                                                           supervisor’s signature;
                                                                       •   5 of 42 forms were
                                                                           missing the security
                                                                           manager’s signature;
                                                                           and
                                                                       •   10 of 42 forms were
                                                                           missing the date of the
                                                                           security manager’s
                                                                           signature.
                                                                       Of the 42 payroll SAAR
                                                                       forms inspected, noted the
                                                                       following:
                                                                       •   6 of 42 forms
                                                                           indicated a user type
                                                                           which did not match
                                                                           the user type in the list
                                                                           of DCPS users by
                                                                           database;
                                                                       •   3 of 42 forms
                                                                           indicated
                                                                           authorization types
                                                                           which did not match
                                                                           the authorization type


                                               35

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                           in the list of DCPS
                                                                           users by database;
                                                                       •   One of 42 forms were
                                                                           1 the DCPS Security
                                                                           Awareness (WBT)
                                                                           completion date;
                                                                       •   2 of 42 forms were
                                                                           missing the
                                                                           supervisor’s signature;
                                                                       •   12 of 42 forms were
                                                                           missing the date of the
                                                                           supervisor’s signature;
                                                                       •   2 of 42 forms were
                                                                           missing the security
                                                                           manager’s signature;
                                                                           and
                                                                       •   4 of 42 forms were
                                                                           missing the date of the
                                                                           security manager’s
                                                                           signature.
                                                                       Furthermore, we noted that
                                                                       for payroll office user
                                                                       testing, the forms that had
                                                                       user types which did not
                                                                       match the list of DCPS
                                                                       users by database are
                                                                       actually for non-payroll
                                                                       personnel who have
                                                                       payroll office access
                                                                       (based on the site activity
                                                                       code). The forms provided
                                                                       indicate that five of the six

                                               36

No.   Control Objective             Control Activities                         Tests Performed                     Results of Testing


                                                                                                               individuals are human
                                                                                                               resources personnel (P)
                                                                                                               with view (V) access; the
                                                                                                               sixth individual is
                                                                                                               accounting personnel (V)
                                                                                                               with accounting technician
                                                                                                               (J) access.
                                                                                                               However, the six
                                                                                                               individuals were included
                                                                                                               in the list of DCPS Users
                                                                                                               by Database as N, V
                                                                                                               combinations; meaning
                                                                                                               that rather than inputting
                                                                                                               the user type/indicator
                                                                                                               code into DCPS as it
                                                                                                               appeared on the DISA
                                                                                                               195-1 form, technicians
                                                                                                               entered these users with
                                                                                                               “N” user type/indicator
                                                                                                               codes with “V”
                                                                                                               authorization types; an
                                                                                                               authorization type which is
                                                                                                               correct for five of the six
                                                                                                               users.

                          2.2 – Policies and procedures are          Inquired with appropriate personnel       DFAS-Pensacola
                          documented to describe that                and read policies and procedures to
                                                                                                               No relevant exception
                          application users are appropriately        confirm that users are appropriately
                                                                                                               noted.
                          identified and authenticated. Access to    identified and authenticated and that
                          the application and output is restricted   access to the application and output is   DFAS-Charleston
                          to authorized users for authorized         restricted to authorized users for
                                                                                                               We identified a limitation
                          purposes.                                  authorized purposes.
                                                                                                               within the DCPS system
                                                                                                               that prevents payroll
                                                                                                               technicians from adhering

                                                          37

No.   Control Objective           Control Activities                   Tests Performed                   Results of Testing


                                                                                                     to the guidance in the
                                                                                                     DCPS Security Guidelines
                                                                                                     Manual. We noted
                                                                                                     technicians input a code
                                                                                                     into DCPS that did not
                                                                                                     correspond with the codes
                                                                                                     indicated on the SAAR
                                                                                                     (see related results of
                                                                                                     testing in control activity
                                                                                                     2.1).
                                                                                                     DFAS management
                                                                                                     indicated the testing
                                                                                                     exception was caused by
                                                                                                     an administrative error and
                                                                                                     the exception was not
                                                                                                     significant enough to
                                                                                                     prevent the control activity
                                                                                                     from meeting its related
                                                                                                     control objective.
                                                                                                     DFAS-Denver
                                                                                                     No relevant exception
                                                                                                     noted.
                                                                                                     DFAS-Indianapolis
                                                                                                     No relevant exception
                                                                                                     noted.

                          2.3 – On-line access logs are      Inquired with appropriate personnel     This control activity is
                          maintained by the System           and inspected access logs and e-mails   tested by GCC Control
                          Management Office (SMO), and the   for unauthorized access attempts to     Activity 7.2. No relevant
                          logs are reviewed regularly for    confirm that logs are maintained by     exception noted.
                          unauthorized access attempts.



                                                       38

No.   Control Objective            Control Activities                      Tests Performed                  Results of Testing


                                                                                                        DFAS-Pensacola
                                                                  the SMO, and the logs are reviewed
                                                                  regularly for unauthorized access     We noted that violations
                                                                  attempts.                             may have occurred during
                                                                                                        the audit period in which
                                                                                                        user(s) were attempting to
                                                                                                        access accounts for which
                                                                                                        they were not authorized.
                                                                                                        Adequate documentation
                                                                                                        was not available at the
                                                                                                        payroll office to allow us
                                                                                                        to investigate this issue
                                                                                                        further.
                                                                                                        DFAS management
                                                                                                        indicated the testing
                                                                                                        exception was caused by
                                                                                                        an administrative error and
                                                                                                        the exception was not
                                                                                                        significant enough to
                                                                                                        prevent the control activity
                                                                                                        from meeting its related
                                                                                                        control objective.

                          2.4 – Remote terminal connections are   Inquired with appropriate personnel   DFAS-Pensacola
                          secured and are connected via           and observed Telework Packages to
                                                                                                        7 out of the 11 telework
                          government issued computers.            confirm remote terminal connections
                                                                                                        packages tested were
                                                                  are secured and are connected via
                                                                                                        incomplete, specifically:
                                                                  government computers. Specifically,
                                                                  inspected the telework packages for   •   7 of 11 packages were
                                                                  each employee to confirm all              missing a Telework
                                                                  employees completed the following         Application; leaving
                                                                  documentation, and each document          only 4 Telework
                                                                  contained the required signatures:        Applications for
                                                                                                            testing;


                                                        39

No.   Control Objective   Control Activities                  Tests Performed                  Results of Testing


                                                                                           •   3 of 11 packages were
                                                     1. VPN Request Form;
                                                                                               missing a DFAS 1402
                                                     2. TSO MOA;
                                                                                               (Safety Checklist);
                                                     3. Telework Application;
                                                                                               leaving only 8 DFAS
                                                     4. DFAS 1402, Safety Checklist; and
                                                                                               1402s for testing; and
                                                     5. DFAS 1400, DFAS MOA.
                                                                                           •   4 of 11 packages were
                                                                                               missing a DFAS 1400
                                                                                               (Telecommuting
                                                                                               Agreement); leaving
                                                                                               only 7 DFAS 1400s
                                                                                               for testing.
                                                                                           All 11 packages contained
                                                                                           a VPN User Access
                                                                                           Request Form and a TSO
                                                                                           MOA. No exceptions
                                                                                           were noted with VPN
                                                                                           request forms; all11 VPN
                                                                                           request forms contained
                                                                                           employee signatures.
                                                                                           The following exceptions
                                                                                           were noted with TSO
                                                                                           MOA testing:
                                                                                           •   5 of 11 TSO MOAs
                                                                                               were missing
                                                                                               employee signature
                                                                                               dates; and
                                                                                           •   3 of 11 TSO MOAs
                                                                                               were missing
                                                                                               supervisor signature
                                                                                               dates.




                                               40

No.   Control Objective   Control Activities         Tests Performed       Results of Testing



                                                                       The following exceptions
                                                                       were noted with DFAS
                                                                       1402 testing:
                                                                       • 2 of 8 were missing
                                                                           employee signatures
                                                                           and dates; and
                                                                       • 1 of 8 was missing
                                                                           employee signature
                                                                           date only.
                                                                       The following exceptions
                                                                       were noted with DFAS
                                                                       1400 testing:
                                                                       • 4 of 7 were missing
                                                                           employee signatures;
                                                                       • 5 of 7 were missing
                                                                           employee signature
                                                                           dates; and
                                                                       • 3 of 7 were missing
                                                                           supervisor signatures
                                                                           and dates.

                                                                       DFAS management
                                                                       indicated the testing
                                                                       exception was caused by
                                                                       an administrative error and
                                                                       the exception was not
                                                                       significant enough to
                                                                       prevent the control activity
                                                                       from meeting its related
                                                                       control objective.



                                               41

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       DFAS-Charleston
                                                                       We confirmed that nine of
                                                                       nine teleworking
                                                                       employees were using
                                                                       Government-issued
                                                                       computers and connecting
                                                                       to DCPS through a VPN.
                                                                       However, we noted the
                                                                       following exceptions while
                                                                       testing the Telework
                                                                       packages:
                                                                       •   1 of 9 Property Passes
                                                                           was missing the
                                                                           property custodian’s
                                                                           signature and
                                                                           employee’s signature
                                                                           and date;
                                                                       •   2 of 9 DFAS 1402
                                                                           forms were missing
                                                                           the employee
                                                                           signatures and dates;
                                                                           and
                                                                           1 of 9 packages was
                                                                           missing a DFAS 1400
                                                                           form (Telecommuting
                                                                           Agreement).
                                                                       Of the remaining eight
                                                                       DFAS 1400 forms
                                                                       inspected:




                                               42

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       •   1 of 8 forms was
                                                                           missing a supervisor’s
                                                                           signature and date.
                                                                       DFAS management
                                                                       indicated the testing
                                                                       exception was caused by
                                                                       an administrative error and
                                                                       the exception was not
                                                                       significant enough to
                                                                       prevent the control activity
                                                                       from meeting its related
                                                                       control objective.
                                                                       DFAS-Denver
                                                                       We were unable to test
                                                                       whether remote terminal
                                                                       connections are secured
                                                                       and are connected via
                                                                       Government-issued
                                                                       computers because
                                                                       Telework packages were
                                                                       not available for review.
                                                                       DFAS management
                                                                       indicated that once all
                                                                       Government equipment
                                                                       was returned to DFAS
                                                                       Denver, all Telework files
                                                                       were destroyed as part of
                                                                       the process to recall
                                                                       Telework personnel in
                                                                       April, 2007.
                                                                       DFAS management
                                                                       indicated the testing
                                                                       exception was caused by

                                               43

No.   Control Objective            Control Activities                        Tests Performed                   Results of Testing


                                                                                                           an administrative error and
                                                                                                           the exception was not
                                                                                                           significant enough to
                                                                                                           prevent the control activity
                                                                                                           from meeting its related
                                                                                                           control objective.
                                                                                                           DFAS-Indianapolis
                                                                                                           DFAS personnel have
                                                                                                           remote access to DCPS
                                                                                                           using non-DoD-issued
                                                                                                           computers which is in
                                                                                                           violation of the DFAS
                                                                                                           Telework policy.
                                                                                                           DFAS management
                                                                                                           indicated the testing
                                                                                                           exception was caused by
                                                                                                           an administrative error and
                                                                                                           the exception was not
                                                                                                           significant enough to
                                                                                                           prevent the control activity
                                                                                                           from meeting its related
                                                                                                           control objective.



                          2.5 – Data entry terminals are           Inquired with appropriate personnel     DFAS-Pensacola
                          connected to the system only during      and observed after-hours processes to
                                                                                                           No relevant exception
                          specified periods of the day, which      confirm terminals are not authorized
                                                                                                           noted.
                          corresponds with the business hours of   to be connected after business hours.
                          the data entry personnel.                                                        DFAS-Charleston
                                                                                                           No relevant exception
                                                                                                           noted.



                                                         44

No.   Control Objective            Control Activities                     Tests Performed                   Results of Testing


                                                                                                        DFAS-Denver
                                                                                                        No relevant exception
                                                                                                        noted.
                                                                                                        DFAS-Indianapolis
                                                                                                        See Control Activity 1.4 –
                                                                                                        DFAS-Indianapolis
                                                                                                        (above) for testing results.
                                                                                                        Exception Noted.
                          2.6 – User IDs and passwords are      Inquired with appropriate personnel     DFAS-Pensacola
                          required to gain access to the DCPS   and observed the DCPS log-in screen     No relevant exception
                          application.                          to confirm that user IDs and            noted.
                                                                passwords are required to gain access   DFAS-Charleston
                                                                to the DCPS application.
                                                                                                        No relevant exception
                                                                                                        noted.
                                                                                                        DFAS-Denver
                                                                                                        No relevant exception
                                                                                                        noted.
                                                                                                        DFAS-Indianapolis
                                                                                                        No relevant exception
                                                                                                        noted.




                                                        45

    No.         Control Objective                     Control Activities                        Tests Performed                     Results of Testing


3         Controls provide reasonable       3.1 – The detailed 592 payroll            Inquired with appropriate personnel       DFAS-Pensacola
          assurance that DCPS               reconciliation shows all pertinent data   and inspected a 100% sample of 26
                                                                                                                                CP1 Database
          authorized users are restricted   describing the payroll (including total   592 reconciliations for each database
          to access only areas needed to    disbursements, Retirement, Thrift         to confirm:                               Of the 26 592
          complete their assigned           Savings Plan (TSP), Bonds, and other                                                reconciliation reports, we
          responsibilities and controls     withholdings) and the related balances    1) The detailed payroll reconciliation    observed that one report
          maintain segregation of duties.   are reconciled, in the appropriate        shows pertinent data describing the       did not have a certifying
                                            accounting period, to corresponding       payroll (including total disbursements,   officer’s signature.
                                            general ledger accounts within DCPS.      Retirement, TSP, Bonds, and other
                                                                                                                                ZKA Database
                                            All reconciling items are investigated    withholdings) and the related balances
                                            and cleared on a timely basis by          are reconciled, in the appropriate        Of the 26 592
                                            supervisory personnel, prior to           accounting period, to corresponding       reconciliation reports, we
                                            disbursement.                             general ledger accounts within DCPS;      observed that 2 of the 2812
                                                                                                                                Statements of Withholding
                                                                                      2) Each 592 reconciliation is approved    were not signed and dated,
                                                                                      by management prior to disbursement;      and 3 of the 2812
                                                                                      and                                       Statements of Withholding
                                                                                                                                were not dated.
                                                                                      3) Reconciling items are investigated
                                                                                                                                DFAS-Charleston
                                                                                      and cleared on a timely basis by
                                                                                      supervisory personnel, prior to           ZGT Database
                                                                                      disbursement.
                                                                                                                                Of the 26 592
                                                                                                                                reconciliation reports, we
                                                                                                                                observed that one report
                                                                                                                                was corrected by the
                                                                                                                                preparer but not
                                                                                                                                reconciled; 1 report did not
                                                                                                                                balance even when a
                                                                                                                                supplemental was
                                                                                                                                prepared, and did not have
                                                                                                                                the 592 preparer’s
                                                                                                                                signature; 3 reports were
                                                                                                                                corrected but did not
                                                                                                                                balance and did not have a

                                                                            46

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       corresponding
                                                                       supplemental worksheet.
                                                                       Additionally, an
                                                                       inconsistency was
                                                                       confirmed in the DFAS
                                                                       Charleston Payroll
                                                                       Center’s procedure for
                                                                       recording adjustments to
                                                                       the 592 when the report is
                                                                       initially out of balance or
                                                                       does not include all of the
                                                                       lines of accounting that are
                                                                       required for full
                                                                       reconciliation.
                                                                       DFAS-Denver
                                                                       No relevant exception
                                                                       noted.
                                                                       DFAS-Indianapolis
                                                                       ZPV Database
                                                                       Of the 26 592
                                                                       reconciliation reports, 5
                                                                       were processed by the
                                                                       Veterans Affairs,
                                                                       therefore, only 21 592
                                                                       reports were tested. Of the
                                                                       21 592 reconciliation
                                                                       reports inspected 2
                                                                       withholding reports were
                                                                       not signed.




                                               47

    No.         Control Objective                     Control Activities                     Tests Performed                 Results of Testing


                                            3.2 – Summary payroll reports          Inquired with appropriate personnel    DFAS-Pensacola
                                            including OLQs of total                and inspected summary reports and
                                                                                                                          No relevant exception
                                            disbursements, Retirement, Thrift      OLQs reviewed and approved by
                                                                                                                          noted.
                                            Savings Plan (TSP), Bonds, and other   management prior to disbursement.
                                            withholdings are reviewed and                                                 DFAS-Charleston
                                            approved by management prior to
                                                                                                                          No relevant exception
                                            disbursement.
                                                                                                                          noted.
                                                                                                                          DFAS-Denver
                                                                                                                          No relevant exception
                                                                                                                          noted.
                                                                                                                          DFAS-Indianapolis
                                                                                                                          No relevant exception
                                                                                                                          noted.




    No.         Control Objective                     Control Activities                     Tests Performed                 Results of Testing


4         Controls provide reasonable       N/A as this is tested by the General   N/A as this is tested by the General   N/A
          assurance that system and         Computer Controls.                     Computer Controls.
          software changes are
          authorized, effectively and
          efficiently implemented, tested
          and documented. (General
          Computer controls only)




                                                                            48

    No.         Control Objective                    Control Activities                        Tests Performed                     Results of Testing


6         Controls include an enterprise   6.1 – A Security Program has been         Inquired with appropriate personnel to    DFAS-Pensacola
          wide security program to         prepared specific to payroll operations   confirm a Security Program for
                                                                                                                               No relevant exception
          review and manage risks and      and is approved by management. The        payroll operations exists. Obtained
                                                                                                                               noted.
          ensure policies comply with      plan is regularly tested and updated to   and inspected the date of the plans and
          laws and regulations.            reflect the results of such tests.        corroborated with management that         DFAS-Charleston
                                                                                     these plans are current, contain up-to-
                                                                                                                               No relevant exception
                                                                                     date information, and are readily
                                                                                                                               noted.
                                                                                     available to all relevant personnel.
                                                                                     Inquired with management to confirm       DFAS-Denver
                                                                                     that the plans have been approved.
                                                                                                                               No relevant exception
                                                                                                                               noted.
                                                                                                                               DFAS-Indianapolis
                                                                                                                               We could not conduct
                                                                                                                               testing for this control
                                                                                                                               activity. The DFAS
                                                                                                                               Indianapolis Payroll Office
                                                                                                                               only started processing
                                                                                                                               payroll in May 2007;
                                                                                                                               therefore, an FFMIA
                                                                                                                               annual certification has not
                                                                                                                               yet been performed.
                                                                                                                               Since this control activity
                                                                                                                               had not been performed at
                                                                                                                               this location during our
                                                                                                                               period of testing, we can
                                                                                                                               not conclude on the
                                                                                                                               effectiveness of this
                                                                                                                               control.




                                                                           49

    No.         Control Objective                      Control Activities                       Tests Performed                     Results of Testing


7         Controls provide reasonable        7.1 – Policies and procedures are        Inquired with appropriate personnel       DFAS-Pensacola
          assurance that personnel and       documented to describe that only valid   and read policies and procedures to
                                                                                                                                No relevant exception
          payroll data processed and         and accurate changes are made to the     confirm that only valid changes are
                                                                                                                                noted.
          stored at the DFAS and DISA        payroll master files and payroll         made to the payroll master files and
          (GCC) locations are valid,         withholding tables.                      payroll withholding tables.               DFAS-Charleston
          accurate, authorized, complete,
                                                                                                                                No relevant exception
          [and] timely, support financial
                                                                                                                                noted.
          reporting requirements and
          provide sufficient audit trails.                                                                                      DFAS-Denver
                                                                                                                                Exceptions noted. Please
                                                                                                                                see testing performed in
                                                                                                                                Control Activity 7.10.
                                                                                                                                DFAS-Indianapolis
                                                                                                                                No relevant exception
                                                                                                                                noted.



                                             7.2 – Programmed validation and edit     Inquired with appropriate personnel       DFAS-Pensacola
                                             checks identify erroneous data.          and observed programmed validation
                                                                                                                                No relevant exception
                                                                                      and edit checks to confirm they
                                                                                                                                noted.
                                                                                      identify erroneous data entered
                                                                                      directly into DCPS.




                                             7.3 – The ability to view, modify, or    Inquired with appropriate personnel       All Payroll Offices
                                             transfer information contained in the    and inspected haphazard sample of 45
                                                                                                                                Of the 45 SAARs selected
                                             payroll master files is restricted to    System Access Authorization Request
                                                                                                                                for testing, 3 employees
                                             authorized personnel.                    forms (i.e., SAARs) to confirm the
                                                                                                                                were no longer DCPS
                                                                                      master file is restricted to authorized
                                                                                                                                users and were not active
                                                                                      personnel.
                                                                                                                                in the system; therefore,


                                                                             50

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       forms could not be
                                                                       provided for these users.
                                                                       Of the 42 non-payroll
                                                                       SAAR forms inspected,
                                                                       noted the following:
                                                                       •   1 of 42 forms
                                                                           indicated a user type
                                                                           which did not match
                                                                           the user type in the list
                                                                           of DCPS users by
                                                                           database;
                                                                       •   3 of 42 forms
                                                                           indicated
                                                                           authorization types
                                                                           which did not match
                                                                           the authorization type
                                                                           in the list of DCPS
                                                                           users by database;
                                                                       •   3 of 42 forms were
                                                                           missing the DCPS
                                                                           Security Awareness
                                                                           (WBT) completion
                                                                           date;
                                                                       •   1 of 42 forms was
                                                                           missing the user’s
                                                                           signature;
                                                                       •   1 of 42 forms was
                                                                           missing the
                                                                           supervisor’s signature;




                                               51

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       •   9 of 42 forms were
                                                                           missing the date of the
                                                                           supervisor’s signature;
                                                                       •   Five of 42 forms were
                                                                           missing the security
                                                                           manager’s signature;
                                                                           and
                                                                       •   10 of 42 forms were
                                                                           missing the date of the
                                                                           security manager’s
                                                                           signature.

                                                                       Of the 42 payroll SAAR
                                                                       forms inspected, noted the
                                                                       following:
                                                                       •   6 of 42 forms
                                                                           indicated a user type
                                                                           which did not match
                                                                           the user type in the list
                                                                           of DCPS users by
                                                                           database;
                                                                       •    3 of 42 forms
                                                                           indicated
                                                                           authorization types
                                                                           which did not match
                                                                           the authorization type
                                                                           in the list of DCPS
                                                                           users by database;
                                                                       •   1 of 42 forms were
                                                                           missing the DCPS
                                                                           Security Awareness
                                                                           (WBT) completion

                                               52

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                           date;
                                                                       •   2 of 42 forms were
                                                                           missing the
                                                                           supervisor’s signature;
                                                                       •   12 of 42 forms were
                                                                           missing the date of the
                                                                           supervisor’s signature;
                                                                       •   2 of 42 forms were
                                                                           missing the security
                                                                           manager’s signature;
                                                                           and
                                                                       •   4 of 42 forms were
                                                                           missing the date of the
                                                                           security manager’s
                                                                           signature.
                                                                       Furthermore, we noted that
                                                                       for Payroll Office user
                                                                       testing, the forms that had
                                                                       user types which did not
                                                                       match the list of DCPS
                                                                       users by database are
                                                                       actually for Non-Payroll
                                                                       personnel who have
                                                                       Payroll Office access
                                                                       (based on the site activity
                                                                       code). The forms provided
                                                                       indicate that five of the six
                                                                       individuals are human
                                                                       resources personnel (P)
                                                                       with view (V) access; the
                                                                       sixth individual is
                                                                       accounting personnel (V)


                                               53

No.   Control Objective             Control Activities                        Tests Performed                  Results of Testing


                                                                                                           with accounting technician
                                                                                                           (J) access.
                                                                                                           However, all six
                                                                                                           individuals were included
                                                                                                           in the list of DCPS users
                                                                                                           by database as N, V
                                                                                                           combinations; meaning
                                                                                                           that rather than inputting
                                                                                                           the user type/indicator
                                                                                                           code into DCPS as it
                                                                                                           appeared on the DISA
                                                                                                           195-1 form, technicians
                                                                                                           entered these users with
                                                                                                           “N” user type/indicator
                                                                                                           codes with “V”
                                                                                                           authorization types; an
                                                                                                           authorization type which is
                                                                                                           correct for 5 of the 6 users.

                          7.4 – Changes to the payroll              Inquired with appropriate personnel    DFAS-Pensacola
                          withholding tables and master files are   and observed the process of tax
                                                                                                           No relevant exception
                          compared to authorized source             changes to the payroll withholding
                                                                                                           noted.
                          documents by supervisory personnel        tables and master files being
                          to ensure that they were input            compared to authorized source          DFAS-Charleston
                          accurately.                               documents by supervisory personnel
                                                                                                           No relevant exception
                                                                    to confirm that they were tested and
                                                                                                           noted.
                                                                    approved.
                                                                                                           DFAS-Denver
                                                                    Inquired with appropriate personnel
                                                                                                           No relevant exception
                                                                    and observed the Imaging process to
                                                                                                           noted.
                                                                    confirm that inputs are compared to
                                                                    authorized Imaging documents to
                                                                    confirm that they were input
                                                                    accurately.


                                                          54

No.   Control Objective            Control Activities                      Tests Performed                     Results of Testing


                                                                                                           DFAS-Indianapolis
                                                                                                           No relevant exception
                                                                                                           noted.

                          7.5 – Policies and procedures are      Inquired with appropriate personnel       DFAS-Pensacola
                          documented to describe that changes    and read policies and procedures to
                                                                                                           No relevant exception
                          made to the payroll master files and   confirm that changes to the payroll
                                                                                                           noted.
                          withholding tables are authorized,     master files and withholding tables are
                          input, and processed timely.           authorized, input, and processed
                                                                 timely.




                          7.6 – Policies and procedures are      Inquired with appropriate personnel       DFAS-Charleston
                          documented to describe that changes    and read policies and procedures to
                                                                                                           No relevant exception
                          made to the payroll master files and   confirm that changes to the payroll
                                                                                                           noted.
                          withholding tables are authorized,     master files and withholding tables are
                          input, and processed timely.           authorized, input, and processed
                                                                 timely.




                          7.7 – Policies and procedures are      Inquired with appropriate personnel       DFAS-Denver
                          documented to describe that changes    and read policies and procedures to
                                                                                                           Exceptions noted. Please
                          made to the payroll master files and   confirm that changes to the payroll
                                                                                                           see testing performed in
                          withholding tables are authorized,     master files and withholding tables are
                                                                                                           Control Activity 7.10.
                          input, and processed timely.           authorized, input, and processed
                                                                 timely.




                                                         55

No.   Control Objective            Control Activities                        Tests Performed                     Results of Testing


                          7.8 – Policies and procedures are        Inquired with appropriate personnel       DFAS-Indianapolis
                          documented to describe that changes      and read policies and procedures to
                                                                                                             No relevant exception
                          made to the payroll master files and     confirm that changes to the payroll
                                                                                                             noted.
                          withholding tables are authorized,       master files and withholding tables are
                          input, and processed timely.             authorized, input, and processed
                                                                   timely.




                          7.9 – Changes to the payroll master      Inquired with appropriate personnel       DFAS-Pensacola
                          file and withholding table data are      and inspected reports to confirm that
                                                                                                             No relevant exception
                          logged in numerous reports and           changes to the payroll master file and
                                                                                                             noted.
                          reviewed by supervisory personnel to     table data are logged and reviewed by
                          ensure that all requested changes are    supervisory personnel.                    DFAS-Charleston
                          processed timely.
                                                                                                             No relevant exception
                                                                                                             noted.
                                                                                                             DFAS-Denver
                                                                                                             No relevant exception
                                                                                                             noted.
                                                                                                             DFAS-Indianapolis
                                                                                                             No Relevant Exceptions
                                                                                                             Noted.
                          7.10 – Requests to change the payroll    Inquired with appropriate personnel       DFAS-Pensacola
                          master file data and withholding table   and inspected a haphazard sample of
                                                                                                             Of the 45 remedy tickets
                          are submitted on pre-numbered            45 Remedy Tickets to confirm the
                                                                                                             inspected, 4 were not
                          Remedy Tickets; the numerical            requests:
                                                                                                             completed within the
                          sequence of the Remedy Tickets is
                                                                   • are pre-numbered;                       escalation timeframe
                          accounted for to ensure that the
                                                                   • the sequence is accounted for so that   prescribed by
                          requested changes are processed
                                                                   the forms are accounted for timely;       management.
                          timely. Access to source documents is
                                                                   • access to the source documents is

                                                         56

No.   Control Objective            Control Activities                     Tests Performed            Results of Testing


                          controlled; Key source documents      controlled; and                  DFAS management
                          require signatures from supervisory   • key source documents require   indicated the testing
                          personnel.                            signatures from supervisory      exception was caused by
                                                                personnel.                       an administrative error and
                                                                                                 the exception was not
                                                                                                 significant enough to
                                                                                                 prevent the control activity
                                                                                                 from meeting its related
                                                                                                 control objective.
                                                                                                 DFAS-Charleston
                                                                                                 The numerical sequence of
                                                                                                 the remedy tickets was not
                                                                                                 continuous.
                                                                                                 Of the universe of remedy
                                                                                                 tickets inspected, there
                                                                                                 were 13 remedy tickets
                                                                                                 missing.
                                                                                                 DFAS-Denver
                                                                                                 Of the 45 remedy tickets
                                                                                                 inspected; 1 was not
                                                                                                 processed within the
                                                                                                 escalation timeframe
                                                                                                 prescribed by
                                                                                                 management.
                                                                                                 DFAS management
                                                                                                 indicated the testing
                                                                                                 exception was caused by
                                                                                                 an administrative error and
                                                                                                 the exception was not
                                                                                                 significant enough to




                                                         57

No.   Control Objective            Control Activities                        Tests Performed                    Results of Testing


                                                                                                            prevent the control activity
                                                                                                            from meeting its related
                                                                                                            control objective.
                                                                                                            DFAS-Indianapolis
                                                                                                            No relevant exception
                                                                                                            noted.



                          7.11 – Payroll master file data and      Inquired with appropriate personnel      DFAS-Pensacola
                          withholding table data are edited and    and inspected a sample of 45
                                                                                                            Of the 45 Personnel
                          validated and errors identified on the   Personnel Interface Invalid Reports of
                                                                                                            Interface Invalid Reports
                          Personnel Interface Invalid Report are   erroneous transactions to confirm
                                                                                                            selected for review, 16
                          corrected promptly.                      items are investigated and resolved
                                                                                                            could not be located. Of
                                                                   timely.
                                                                                                            the 29 Personnel Interface
                                                                                                            Invalid Reports inspected:
                                                                                                            • 8 reports were missing
                                                                                                                 the technician’s
                                                                                                                 signature on the
                                                                                                                 report;
                                                                                                            • 8 reports were missing
                                                                                                                 the date of when the
                                                                                                                 report was annotated
                                                                                                                 by the technician; and
                                                                                                            • 29 were inconsistently
                                                                                                                 annotated with codes
                                                                                                                 outlined in the SOP.
                                                                                                            We confirmed that the
                                                                                                            requirement for
                                                                                                            technicians to annotate
                                                                                                            every transaction did not
                                                                                                            take effect until
                                                                                                            May 27, 2007. One report

                                                         58

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       in the random sample fell
                                                                       after this date (June 18,
                                                                       2007). We scanned this
                                                                       report and noted that the
                                                                       technician annotating this
                                                                       report failed to comply
                                                                       with the new requirement,
                                                                       and transactions were
                                                                       annotated inconsistently.
                                                                       None of the 29 reports
                                                                       provided and scanned
                                                                       contained sufficient detail
                                                                       to confirm resolution of all
                                                                       errors in the reports.
                                                                       DFAS-Charleston
                                                                       Of the 45 Personnel
                                                                       Interface Invalid Reports
                                                                       selected for review, no
                                                                       interface errors occurred
                                                                       for 9 of the reports
                                                                       selected. Of the 36
                                                                       Personnel Interface Invalid
                                                                       Reports inspected, only 1
                                                                       was not annotated
                                                                       correctly.
                                                                       Furthermore, evidence of
                                                                       supervisory review of
                                                                       Personnel Interface Invalid
                                                                       Reports could not be
                                                                       obtained for the sample
                                                                       selected in Control
                                                                       Activities 7.11/7.23.


                                               59

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       The Personnel Interface
                                                                       Invalid Reports SOP states
                                                                       a supervisor reviews 10%
                                                                       of the Payroll Technician’s
                                                                       annotated reports on file.
                                                                       DFAS-Denver
                                                                       OMA Database
                                                                       Of the 45 Personnel
                                                                       Interface Invalid Reports
                                                                       inspected, 5 reports
                                                                       provided did not contain
                                                                       annotations by the payroll
                                                                       office technician for each
                                                                       line item that described the
                                                                       error correction method.
                                                                       ZPA Database
                                                                       Of the 45 Personnel
                                                                       Interface Invalid Reports
                                                                       selected, 1 report could not
                                                                       be located for review.
                                                                       DFAS-Indianapolis
                                                                       ZPV Database
                                                                       ZPV Personnel Interface
                                                                       Invalid Reports processing
                                                                       was performed at the
                                                                       Pensacola Payroll Office
                                                                       from August 20, 2006,
                                                                       through May 12, 2007.
                                                                       The Pensacola Payroll
                                                                       Office was unable to
                                                                       supply Personnel Interface

                                               60

No.   Control Objective            Control Activities                        Tests Performed                 Results of Testing


                                                                                                         Invalid Reports
                                                                                                         documentation for August
                                                                                                         20, 2006, through January
                                                                                                         19, 2007; therefore, testing
                                                                                                         could not be conducted for
                                                                                                         this timeframe.
                                                                                                         Of the reports requested
                                                                                                         for the remaining audit
                                                                                                         period (26 reports in total),
                                                                                                         one could not be located.
                                                                                                         Of the 25 inspected, 15
                                                                                                         were missing a date; 1 did
                                                                                                         not include a technician’s
                                                                                                         signature; and 4 were not
                                                                                                         properly annotated.
                          7.12 – Policies and procedures are       Inquired with appropriate personnel   DFAS-Pensacola
                          documented to describe that payroll      and read policies and procedures to
                                                                                                         No relevant exception
                          processing is accurate and recorded in   confirm that payroll processing is
                                                                                                         noted.
                          the proper period.                       accurate and recorded in the
                                                                   appropriate period.                   DFAS-Charleston
                                                                                                         No relevant exception
                                                                                                         noted.
                                                                                                         DFAS-Denver
                                                                                                         No relevant exception
                                                                                                         noted.
                                                                                                         DFAS-Indianapolis
                                                                                                         No relevant exception
                                                                                                         noted.




                                                         61

No.   Control Objective             Control Activities                        Tests Performed                     Results of Testing


                          7.13 – Compliance with the payroll        Inquired with appropriate personnel       DFAS-Pensacola
                          disbursement processing schedule is       and inspected pay processing
                                                                                                              No relevant exception
                          monitored by management.                  schedules and observed payroll
                                                                                                              noted.
                                                                    disbursement process to confirm
                                                                    management monitored payroll              DFAS-Charleston
                                                                    disbursement processing schedule.
                                                                                                              No relevant exception
                                                                                                              noted.


                                                                                                              DFAS-Denver
                                                                                                              No relevant exception
                                                                                                              noted.
                                                                                                              DFAS-Indianapolis
                                                                                                              No relevant exception
                                                                                                              noted.


                          7.14 – The detailed 592 payroll           Inquired with appropriate personnel       DFAS-Pensacola
                          reconciliation shows all pertinent data   and inspected a 100% sample of 26
                                                                                                              CP1 Database
                          describing the payroll (including total   592 reconciliations for each database
                          disbursements, Retirement, Thrift         to confirm:                               Of the 26 592
                          Savings Plan (TSP), bonds, and other                                                reconciliation reports, we
                          withholdings) and the related balances    1) The detailed payroll reconciliation    observed that 1 report did
                          are reconciled, in the appropriate        shows pertinent data describing the       not have a certifying
                          accounting period, to corresponding       payroll (including total disbursements,   officer’s signature.
                          general ledger accounts within DCPS.      Retirement, TSP, bonds, and other
                                                                                                              ZKA Database
                          All reconciling items are investigated    withholdings) and the related balances
                          and cleared on a timely basis by          are reconciled, in the appropriate        Of the 26 592
                          supervisory personnel, prior to           accounting period, to corresponding       reconciliation reports, we
                          disbursement.                             general ledger accounts within DCPS;      observed that 2 of the 2812
                                                                                                              Statements of Withholding
                                                                                                              were not signed and dated,


                                                          62

No.   Control Objective   Control Activities                   Tests Performed                    Results of Testing


                                                                                              and 3 of the 2812
                                                     2) Each 592 reconciliation is approved
                                                                                              Statements of Withholding
                                                     by management prior to disbursement;
                                                                                              were not dated.
                                                     and
                                                                                              DFAS-Charleston
                                                     3) Reconciling items are investigated
                                                     and cleared on a timely basis by         ZGT Database
                                                     supervisory personnel, prior to
                                                                                              Of the 26 592
                                                     disbursement.
                                                                                              reconciliation reports, we
                                                                                              observed that 1 report was
                                                                                              corrected by the preparer
                                                                                              but not reconciled; 1 report
                                                                                              did not balance when a
                                                                                              supplemental 592 was
                                                                                              prepared, and it did not
                                                                                              have the 592 preparer’s
                                                                                              signature; 3 reports were
                                                                                              corrected but did not
                                                                                              balance and did not have a
                                                                                              corresponding
                                                                                              supplemental worksheet.
                                                                                              Additionally, an
                                                                                              inconsistency was
                                                                                              confirmed in the DFAS
                                                                                              Charleston Payroll
                                                                                              Center’s procedure for
                                                                                              recording adjustments to
                                                                                              the 592 when the report is
                                                                                              initially out of balance or
                                                                                              does not include all of the
                                                                                              lines of accounting that are
                                                                                              required for full
                                                                                              reconciliation.




                                               63

No.   Control Objective            Control Activities                       Tests Performed                  Results of Testing


                                                                                                         DFAS-Denver
                                                                                                         No relevant exception
                                                                                                         noted.
                                                                                                         DFAS-Indianapolis
                                                                                                         ZPV Database
                                                                                                         Of the 26 592
                                                                                                         reconciliation reports, 5
                                                                                                         were processed by the
                                                                                                         Veterans Affairs,
                                                                                                         therefore, only 21 592
                                                                                                         reports were tested. Of the
                                                                                                         21 592 reconciliation
                                                                                                         reports inspected, 2
                                                                                                         withholding reports were
                                                                                                         not signed.

                          7.15 – Summary payroll reports          Inquired with appropriate personnel,   DFAS-Pensacola
                          including OLQs of total                 obtained and inspected summary
                                                                                                         No relevant exception
                          disbursements, Retirement, Thrift       payroll reports and OLQs to confirm
                                                                                                         noted.
                          Savings Plan (TSP), Bonds, and other    the following:
                          withholdings are periodically                                                  DFAS-Charleston
                                                                  •   Payroll master files and
                          reviewed by supervisory personnel for
                                                                      withholding tables are             No relevant exception
                          accuracy and ongoing pertinence of
                                                                      periodically reviewed by           noted.
                          the payroll master file and
                                                                      supervisory personnel for
                          withholding tables, and approved by                                            DFAS-Denver
                                                                      accuracy and ongoing pertinence;
                          management prior to disbursement.
                                                                      and                                No relevant exception
                                                                                                         noted.
                                                                  •   Reports are approved by
                                                                      management prior to                DFAS-Indianapolis
                                                                      disbursement.
                                                                                                         No relevant exception
                                                                                                         noted.



                                                        64

No.   Control Objective            Control Activities                       Tests Performed                 Results of Testing


                          7.16 – Policies and procedures are      Inquired with appropriate personnel   DFAS-Pensacola
                          documented to describe that disbursed   and read policies and procedures to
                                                                                                        No relevant exception
                          payroll (including compensation and     confirm that disbursed payroll is
                                                                                                        noted.
                          withholding) is accurately calculated   accurately calculated and recorded.
                          and recorded.                                                                 DFAS-Charleston
                                                                                                        No relevant exception
                                                                                                        noted.
                                                                                                        DFAS-Denver
                                                                                                        No relevant exception
                                                                                                        noted.
                                                                                                        DFAS-Indianapolis
                                                                                                        Exceptions noted. See
                                                                                                        testing performed in
                                                                                                        Control Activity 7.21.
                          7.17 – DCPS performs limit and          Inquired with appropriate personnel   DFAS-Pensacola
                          reasonableness checks on employee       and inspected a limit and
                                                                                                        No relevant exception
                          earnings.                               reasonableness report to confirm
                                                                                                        noted.
                                                                  reasonableness checks are performed
                                                                  on employee earnings.                 DFAS-Charleston
                                                                                                        We noted that large payroll
                                                                                                        increases occurred in the
                                                                                                        pay periods ending March
                                                                                                        17, 2007, and May 12,
                                                                                                        2007, for the ZPD payroll
                                                                                                        database and the ZFR
                                                                                                        payroll database
                                                                                                        respectively. These large
                                                                                                        increases were for annual
                                                                                                        pay bonuses that were paid
                                                                                                        in the appropriate pay
                                                                                                        period. DFAS-Charleston

                                                        65

No.   Control Objective            Control Activities                      Tests Performed                    Results of Testing


                                                                                                          was unable to provide us
                                                                                                          documentation to confirm
                                                                                                          the reasons that were
                                                                                                          given for the large payroll
                                                                                                          increases. DCPS does not
                                                                                                          have a limit or
                                                                                                          reasonableness check
                                                                                                          requirement to identify
                                                                                                          variances at the total
                                                                                                          payroll level.
                                                                                                          DFAS-Denver
                                                                                                          No relevant exception
                                                                                                          noted.
                                                                                                          DFAS-Indianapolis
                                                                                                          Confirmed the Less than
                                                                                                          $1 Greater than $5,000
                                                                                                          Desk Guide did not have
                                                                                                          documented procedures
                                                                                                          requiring a supervisor to
                                                                                                          review 10% of the entries
                                                                                                          in the report, or the
                                                                                                          requirement to evidence
                                                                                                          the review with a signature
                                                                                                          or similar notation.
                          7.18 – Policies and procedures are     Inquired with appropriate personnel      DFAS-Pensacola
                          documented to describe that only       and read policies and procedures to
                                                                                                          No relevant exception
                          valid, authorized employees are paid   confirm that only valid, authorized
                                                                                                          noted.
                          and that payroll is disbursed to       employees are paid and that payroll is
                          appropriate employees.                 disbursed to appropriate employees.      DFAS-Charleston
                                                                                                          No relevant exception
                                                                                                          noted.


                                                         66

No.   Control Objective            Control Activities                       Tests Performed                    Results of Testing


                                                                                                           DFAS-Denver
                                                                                                           No relevant exception
                                                                                                           noted.
                                                                                                           DFAS-Indianapolis
                                                                                                           No relevant exception
                                                                                                           noted.


                          7.19 – Supervisory personnel            Inquired with appropriate personnel      DFAS-Pensacola
                          periodically review listings, such as   and inspected the Personnel/Payroll
                                                                                                           Noted the Pensacola
                          the Personnel/Payroll Reconciliation    Reconciliation Report to confirm it is
                                                                                                           Payroll Office does not
                          Report, of current employees within     sent to management for review of
                                                                                                           send a letter of completion
                          each user organization and notify the   employee listings personnel
                                                                                                           signed by the supervisor to
                          corresponding user organization’s       department notified of changes.
                                                                                                           the personnel offices as
                          personnel department of necessary
                                                                  Obtained and inspected a sample of       documented in the SOP.
                          changes.
                                                                  45 Personnel/Payroll Reconciliation
                                                                                                           Of the 45
                                                                  Reports, along with the corresponding
                                                                                                           Personnel/Payroll
                                                                  supervisor document log, to confirm
                                                                                                           Reconciliation Reports
                                                                  items that require resolution are
                                                                                                           inspected, 1 report for
                                                                  investigated and resolved by the
                                                                                                           Thrift Savings Plan (TSP)
                                                                  appropriate personnel. Additionally,
                                                                                                           changes, which is handled
                                                                  inspected the supervisor document log
                                                                                                           by the Support Services
                                                                  to confirm the quarterly Pay Personnel
                                                                                                           Branch, could not be
                                                                  Reports are logged and both
                                                                                                           located. Additionally, we
                                                                  supervisor and personnel signatures
                                                                                                           identified that reports that
                                                                  are captured.
                                                                                                           go to that branch are not
                                                                                                           maintained with a cover
                                                                                                           sheet as required by the
                                                                                                           SOP. Four reports were
                                                                                                           not completed within 10
                                                                                                           working days as required


                                                         67

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       by the SOP.

                                                                       DFAS-Charleston

                                                                       DFAS-Charleston did not
                                                                       receive any
                                                                       Personnel/Payroll
                                                                       Reconciliation Reports for
                                                                       3 of the 4 quarters of our
                                                                       audit period and received
                                                                       only 4 reports for another
                                                                       quarter. The most recent
                                                                       quarter reports were
                                                                       supplied; however, we
                                                                       were unable to test as the
                                                                       reconciliation process was
                                                                       not yet complete.
                                                                       Therefore, testing could
                                                                       not be performed.
                                                                       Furthermore, for the
                                                                       reports that were supplied,
                                                                       noted the Charleston
                                                                       Payroll Office does not
                                                                       create adequate cover
                                                                       sheets for the
                                                                       Personnel/Payroll Reports
                                                                       as required by the DFAS
                                                                       entity-wide
                                                                       Personnel/Payroll
                                                                       Reconciliation SOP.




                                               68

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       DFAS-Denver

                                                                       DFAS Denver does not
                                                                       retain Personnel/Payroll
                                                                       Reconciliation packages
                                                                       (i.e., coversheet, report) as
                                                                       required by the DFAS Pay
                                                                       Personnel Reconciliation
                                                                       SOP; therefore, testing
                                                                       could not be performed.

                                                                       DFAS-Indianapolis

                                                                       We could not conduct
                                                                       testing for this control
                                                                       activity. The Indianapolis
                                                                       Payroll Office has not yet
                                                                       performed reconciliation
                                                                       between the personnel
                                                                       system, Defense Civilian
                                                                       Personnel Data System
                                                                       (DCPDS), and DCPS as it
                                                                       has only processed 3
                                                                       payrolls within the audit
                                                                       period.

                                                                       Since this control activity
                                                                       had not been performed at
                                                                       this location during our
                                                                       period of testing, we can
                                                                       not conclude on the
                                                                       effectiveness of this
                                                                       control.



                                               69

No.   Control Objective             Control Activities                       Tests Performed                   Results of Testing


                          7.20 – Only authorized personnel have    Inquired with the appropriate           All Payroll Offices
                          the ability to disburse payroll.         personnel, observed the disbursement
                                                                                                           Of the 56 SAAR forms
                                                                   of payroll, and inspected a sample of
                                                                                                           inspected for persons with
                                                                   45 DCPS user profiles to confirm that
                                                                                                           the ability to disburse
                                                                   only authorized personnel have the
                                                                                                           payroll, 1 was missing a
                                                                   ability to disburse payroll.
                                                                                                           supervisor signature.


                          7.21 – Policies and procedures are       Inquired with appropriate personnel     DFAS-Pensacola
                          documented to describe that controls     and read policies and procedures to
                                                                                                           No relevant exception
                          provide reasonable assurance of the      confirm that controls provide
                                                                                                           noted.
                          integrity and reliability of DCPS data   reasonable assurance of the integrity
                          for financial reporting purposes.        and reliability of DCPS data for        DFAS-Charleston
                                                                   financial reporting purposes.
                                                                                                           A policy and/or procedure
                                                                                                           does not exist that requires
                                                                                                           the 592 reconciler to
                                                                                                           identify an increase in total
                                                                                                           payroll or to document and
                                                                                                           include the reason for
                                                                                                           increase in the 592 file
                                                                                                           when one occurs (see
                                                                                                           additional results of testing
                                                                                                           in Control Activity 7.19).
                                                                                                           DFAS-Denver
                                                                                                           No relevant exception
                                                                                                           noted.
                                                                                                           DFAS-Indianapolis
                                                                                                           Policies and procedures for
                                                                                                           reconciling the 592 reports
                                                                                                           have not been developed
                                                                                                           and documented.


                                                          70

No.   Control Objective             Control Activities                       Tests Performed                     Results of Testing


                          7.22 – Payroll transactions at the end   Inquired with appropriate personnel       DFAS-Pensacola
                          of a payroll cycle are reconciled by     and inspected a 100% sample of 26
                                                                                                             CP1 Database
                          supervisory personnel to ensure          592 payroll reconciliations at the end
                          complete and consistent recording in     of a payroll cycle to confirm they are    Of the 26 592
                          the appropriate accounting period.       reconciled to confirm complete and        reconciliation reports, we
                                                                   consistent recording in the appropriate   observed that 1 report did
                                                                   accounting period.                        not have a certifying
                                                                                                             officer’s signature.
                                                                                                             ZKA Database
                                                                                                             Of the 26 592
                                                                                                             reconciliation reports, we
                                                                                                             observed that 2 of the 2812
                                                                                                             Statements of Withholding
                                                                                                             were not signed and dated,
                                                                                                             and 3 of the 2812
                                                                                                             Statements of Withholding
                                                                                                             were not dated.
                                                                                                             DFAS-Charleston
                                                                                                             ZGT Database
                                                                                                             Of the 26 592
                                                                                                             reconciliation reports, we
                                                                                                             observed that 1 report was
                                                                                                             corrected by the preparer
                                                                                                             but not reconciled; 1 report
                                                                                                             did not balance when a
                                                                                                             supplemental was
                                                                                                             prepared, and it did not
                                                                                                             have the 592 preparer’s
                                                                                                             signature; 3 reports were
                                                                                                             corrected but did not
                                                                                                             balance and did not have a
                                                                                                             corresponding

                                                          71

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       supplemental worksheet.
                                                                       Additionally, an
                                                                       inconsistency was
                                                                       confirmed in the DFAS
                                                                       Charleston Payroll
                                                                       Center’s procedure for
                                                                       recording adjustments to
                                                                       the 592 when the report is
                                                                       initially out of balance or
                                                                       does not include all of the
                                                                       lines of accounting that are
                                                                       required for full
                                                                       reconciliation.
                                                                       DFAS-Denver
                                                                       No relevant exception
                                                                       noted.
                                                                       DFAS-Indianapolis
                                                                       ZPV Database
                                                                       Of the 26 592
                                                                       reconciliation reports
                                                                       requested, 5 pay periods
                                                                       were processed and
                                                                       reconciled by the Veterans
                                                                       Affairs on their own
                                                                       behalf, therefore, only 21
                                                                       592 reports were
                                                                       considered in scope and
                                                                       tested. Of the 21 592
                                                                       reconciliation reports
                                                                       inspected 2 withholding
                                                                       reports were not signed.


                                               72

No.   Control Objective            Control Activities                         Tests Performed                     Results of Testing


                          7.23 – Error reports, such as the         Inquired with appropriate personnel       DFAS-Pensacola
                          Personnel Interface Invalid Report,       and obtained a sample of 45 Personnel
                                                                                                              Of the 45 Personnel
                          and error warnings show rejected          Interface Invalid Reports to confirm
                                                                                                              Interface Invalid Reports
                          transactions with error messages that     the following:
                                                                                                              selected for review, 16
                          have clear understandable corrective
                                                                    •   the reports show rejected             could not be located. Of
                          actions for each type of error.
                                                                        transactions with error messages      the 29 Personnel Interface
                          Rejected data are automatically               that have clear understandable        Invalid Reports inspected:
                          written to the Personnel Interface            corrective actions for each type of
                                                                                                              •   8 reports were missing
                          Invalid Report and held until corrected       error;
                                                                                                                  the technician’s
                          by payroll technicians, and each
                                                                    •   the rejected data are                     signature on the
                          erroneous transaction is annotated
                                                                        automatically written on an               report;
                          with codes indicating the type of data
                                                                        automated error suspense file and
                          error, date and time the transaction                                                •   8 reports were missing
                                                                        held until corrected by payroll
                          was processed and the error identified,                                                 the date of when the
                                                                        technicians, and each erroneous
                          and the identity of the user who                                                        report was annotated
                                                                        transaction is annotated with
                          originated the transaction.                                                             by the technician; and
                                                                        codes indicating the type of data
                          Users review the Personnel Interface          error, date and time the              •   29 were inconsistently
                          Invalid Reports for data accuracy,            transaction was processed, the            annotated with codes
                          validity, and completeness.                   error identified, and the identity        outlined in the SOP.
                                                                        of the user who originated the
                          A control group is responsible for                                                  We confirmed that the
                                                                        transaction;
                          controlling and monitoring rejected                                                 requirement for
                          transactions included on the Personnel    •   users review output for data          technicians to annotate
                          Interface Invalid Report.                     accuracy, validity, and               every transaction did not
                                                                        completeness; and                     take effect until
                                                                                                              May 27, 2007. One report
                                                                    •   the report is used for controlling
                                                                                                              in the random sample fell
                                                                        and monitoring rejected
                                                                                                              after this date (June 18,
                                                                        transactions.
                                                                                                              2007). We scanned this
                                                                                                              report and noted that the
                                                                                                              technician annotating this
                                                                                                              report failed to comply
                                                                                                              with the new requirement
                                                                                                              and transactions were

                                                          73

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       annotated inconsistently.
                                                                       All 29 reports did not
                                                                       include the technician’s
                                                                       annotation for each line
                                                                       item to confirm resolution
                                                                       of all errors in the reports.
                                                                       DFAS-Charleston
                                                                       Of the 45 Personnel
                                                                       Interface Invalid Reports
                                                                       selected for review, no
                                                                       interface errors occurred
                                                                       for 9 of the reports
                                                                       selected. Of the 36
                                                                       Personnel Interface Invalid
                                                                       Reports inspected, 1 was
                                                                       not annotated correctly.
                                                                       Furthermore, evidence of
                                                                       supervisory review of
                                                                       Personnel Interface Invalid
                                                                       Reports (PIIR) could not
                                                                       be obtained for the sample
                                                                       selected in Control
                                                                       Activities 7.11/7.23.
                                                                       The PIIR SOP states a
                                                                       supervisor reviews 10% of
                                                                       the Payroll Technician’s
                                                                       annotated reports on file.
                                                                       DFAS-Denver
                                                                       OMA Database
                                                                       Of the 45 Personnel
                                                                       Interface Invalid Reports

                                               74

No.   Control Objective   Control Activities         Tests Performed       Results of Testing


                                                                       inspected, 5 did not
                                                                       contain annotations by the
                                                                       payroll office technician
                                                                       for each line item that
                                                                       described the error
                                                                       correction method.
                                                                       ZPA Database
                                                                       Of the 45 Personnel
                                                                       Interface Invalid Reports
                                                                       inspected, 1 could not be
                                                                       located for review.
                                                                       DFAS-Indianapolis
                                                                       ZPV Database
                                                                       ZPV PIIR processing was
                                                                       performed at the Pensacola
                                                                       Payroll Office from
                                                                       August 20, 2006 through
                                                                       May 12, 2007. The
                                                                       Pensacola Payroll Office
                                                                       was unable to supply PIIR
                                                                       documentation for August
                                                                       20, 2006 through January
                                                                       19, 2007; therefore, testing
                                                                       could not be conducted for
                                                                       this timeframe.
                                                                       Of the reports requested
                                                                       for the remaining period of
                                                                       the audit period (26 reports
                                                                       in total), 1 could not be
                                                                       located. Of the 25
                                                                       inspected, 15 reports were
                                                                       missing a date, 1 did not

                                               75

No.   Control Objective             Control Activities                        Tests Performed                 Results of Testing


                                                                                                          have a technician’s
                                                                                                          signature, and 4 were not
                                                                                                          properly annotated.


                          7.24 – Policies and procedures are        Inquired with appropriate personnel   DFAS-Pensacola
                          documented to describe that               and read policies and procedures to
                                                                                                          No relevant exception
                          capabilities exist for fiscal year-end,   confirm that capabilities exist for
                                                                                                          noted.
                          leave-year-end and calendar year-end      fiscal year-end, leave-year-end and
                          processing and forfeitures in             calendar year-end processing and      DFAS-Charleston
                          accordance with established               forfeitures in accordance with
                                                                                                          No relevant exception
                          Government-wide and agency                established Government-wide and
                                                                                                          noted.
                          guidelines.                               agency guidelines. Obtained and
                                                                    inspected Payroll Quality Review      DFAS-Denver
                                                                    (PQR) reports to confirm checklists
                                                                                                          No relevant exception
                                                                    are followed and payroll steps have
                                                                                                          noted.
                                                                    been performed.
                                                                                                          DFAS-Indianapolis
                                                                                                          We could not conduct
                                                                                                          testing for this control
                                                                                                          activity. DFAS
                                                                                                          Indianapolis has not
                                                                                                          performed year-end
                                                                                                          processing; therefore, no
                                                                                                          procedures were available
                                                                                                          for the audit period.

                                                                                                          Since this control activity
                                                                                                          had not been performed at
                                                                                                          this location during our
                                                                                                          period of testing, we can




                                                           76

No.   Control Objective             Control Activities                         Tests Performed                    Results of Testing


                                                                                                              not conclude on the
                                                                                                              effectiveness of this
                                                                                                              control.


                          7.25 – Payroll withholding table data      Inspected payroll withholding table      DFAS-Pensacola
                          is periodically reviewed by                data updates to confirm they are
                                                                                                              No relevant exception
                          supervisory personnel for compliance       periodically updated by supervisory
                                                                                                              noted.
                          with statutory requirements.               personnel for compliance with
                                                                     statutory requirements.



                          7.26 – The data processing control         Inquired with appropriate personnel      DFAS-Pensacola
                          group has a schedule by application        and inspected the schedules used by
                                                                                                              No relevant exception
                          that shows when outputs should be          the data processing group, to confirm
                                                                                                              noted.
                          completed, when they need to be            they:
                          distributed, who the recipients are, and
                                                                     •   have a schedule by application
                          the copies needed; reviews output
                                                                         that shows when outputs need to
                          products for general acceptability; and
                                                                         be completed, when they need to
                          reconciles control information to
                                                                         be distributed, who the recipients
                          determine completeness of processing.
                                                                         are, and the copies needed;
                                                                     •   review output products for
                                                                         general acceptability; and
                                                                         reconcile control information to
                                                                         determine completeness of
                                                                         processing.




                                                          77

No.   Control Objective             Control Activities                        Tests Performed                    Results of Testing


                          7.27 – Policies and procedures are        Inquired with appropriate personnel      DFAS-Pensacola
                          documented to describe that current-      and read policies and procedures to
                                                                                                             No relevant exception
                          or prior-period adjustments to            confirm that current- or prior-period
                                                                                                             noted.
                          employee’s pay, including employee        adjustments to employee’s pay,
                          debt, tax deduction, or deductions not    including employee debt, tax             DFAS-Charleston
                          taken, are reported, reconciled and       deduction, or deductions not taken,
                                                                                                             No relevant exception
                          approved.                                 are reported, reconciled and approved.
                                                                                                             noted.




                                                                                                             DFAS-Denver
                                                                                                             No relevant exception
                                                                                                             noted.
                                                                                                             DFAS-Indianapolis
                                                                                                             No relevant exception
                                                                                                             noted.


                          7.28 – Policies and procedures are        Inquired with appropriate personnel      DFAS-Pensacola
                          documented to describe that               and read policies and procedures to
                                                                                                             The DCPS SYSOUT SOP
                          transactions from interfacing systems     confirm that transactions from
                                                                                                             is one page in length and
                          are subjected to the payroll system       interfacing systems are subjected to
                                                                                                             does not describe all
                          edits, validations and error-correction   the payroll system edits, validations
                                                                                                             activities performed for
                          procedures.                               and error-correction procedures.
                                                                                                             investigating and
                                                                    Obtained and inspected a sample of       correcting erroneous data.
                                                                    45 HHS transactions input to DCPS to     The DCPS SYSOUT is an
                                                                    confirm transactions from interfacing    online report that contains
                                                                    systems are subjected to the payroll     mainframe processing
                                                                    system edits, validations, and error-    results, including run-to-
                                                                    correction procedures. Additionally,
                                                                    inspected associated reports (i.e.,


                                                           78

No.   Control Objective             Control Activities                        Tests Performed                    Results of Testing


                                                                    MyPay Invalid Reports and MER            run balancing and system
                                                                    Add/Change/Delete Reports) to            error messages, if
                                                                    confirm they are reviewed by             applicable.
                                                                    appropriate personnel, and any
                                                                                                             DFAS management
                                                                    exceptions identified are investigated
                                                                                                             indicated the testing
                                                                    and resolved.
                                                                                                             exception was caused by
                                                                                                             an administrative error and
                                                                                                             the exception was not
                                                                                                             significant enough to
                                                                                                             prevent the control activity
                                                                                                             from meeting its related
                                                                                                             control objective.
                                                                                                             DFAS-Charleston
                                                                                                             No relevant exception
                                                                                                             noted.
                                                                                                             DFAS-Denver
                                                                                                             No relevant exception
                                                                                                             noted.
                                                                                                             DFAS-Indianapolis
                                                                                                             No relevant exception
                                                                                                             noted.

                          7.29 – The system provides an audit       Inquired with appropriate personnel      DFAS-Pensacola
                          trail of all transactions processed,      and inspected audit trails of
                                                                                                             No relevant exception
                          transaction errors, error descriptions,   transactions to confirm that erroneous
                                                                                                             noted.
                          and error correction procedures.          transactions are reviewed by
                          Audit trails are reviewed by              supervisory personnel, captured,
                          supervisory personnel and erroneous       reported, investigated, and corrected.
                          data are captured, reported,
                          investigated, and corrected.



                                                           79

    No.         Control Objective                 Control Activities                       Tests Performed                   Results of Testing


8         Controls provide reasonable   8.1 - Policies and procedures are        Inquired with appropriate personnel      DFAS-Pensacola
          assurance that data from      documented to describe that data         and read policies and procedures to
                                                                                                                          No relevant exception
          interfacing systems are       transmissions between DCPS and user      confirm that data transmissions
                                                                                                                          noted
          transferred timely and        organizations are authorized,            between DCPS and user organizations
          accurately.                   complete, accurate and secure.           are authorized, complete, accurate and
                                                                                 secure.

                                        8.2 - For interfacing systems, record    Inquired with appropriate personnel      DFAS-Pensacola
                                        counts are accumulated and compared      and inspected interface files to
                                                                                                                          No relevant exception
                                        to footer control totals to help         confirm that record counts match
                                                                                                                          noted
                                        determine the completeness of            control totals in the footer to
                                        interface processing. Out-of-balance     determine completeness of interface
                                        conditions are reported, corrected and   processing and that out-of-balance
                                        reentered.                               conditions are reported, corrected and
                                                                                 reentered.


                                        8.3 - Batch transactions without pre-    Observed batch process monitoring to     DFAS-Pensacola
                                        assigned serial numbers are              confirm transactions without pre-
                                                                                                                          No relevant exception
                                        automatically assigned a unique          assigned serial numbers are
                                                                                                                          noted
                                        sequence number, which is used by        automatically assigned a unique
                                        the computer to monitor that all         sequence number.
                                        transactions are processed.




                                                                        80

General Computer Control Objectives, Control Activities, Tests Performed, and Results of Testing


   No.         Control Objectives                 Control Activities                         Tests Performed                    Results of Testing

    1      Security Programs Effectiveness Monitoring

           Controls provide reasonable   1.1.1 DISA DECC Mechanicsburg &         DISA DECC Mechanicsburg & DFAS               No relevant exception
   1.1
           assurance that the security   DFAS Saufley Field                      Saufley Field                                noted.
           program effectiveness is
                                         DoD and DFAS policy both direct         Interviewed the Security Officer to obtain
           monitored and changes are
                                         annual Information Assurance (IA)       an understanding of how management
           made as needed.
                                         review.                                 assessed the appropriateness of the
                                                                                 security policies and compliance with
                                                                                 them.


           Management monitors           1.2.1 DISA DECC Mechanicsburg           DISA DECC Mechanicsburg                      No relevant exception
   1.2
           compliance with policies                                                                                           noted.
                                         The Director’s Policy Letters (DPLs)    Inspected the DCPS Security
           and procedures.
                                         and Standard Operating Procedures       Requirements and Information Systems
                                         (SOP) are reviewed and updated.         Security Policy Certification Test and
                                         Security Readiness Review (SRR) is      Evaluation Procedures to confirm that an
                                         conducted at least every 3 years.       annual IA review was conducted and that
                                                                                 comprehensive vulnerability management
                                                                                 was in place.


           Corrective actions are        1.3.1 DISA DECC Mechanicsburg           DISA DECC Mechanicsburg                      No relevant exception
   1.3
           effectively implemented.                                                                                           noted
                                         The Vulnerability Management            Observed the SRR process to confirm that
                                         System (VMS) 6.0 is used to track       corrective actions are effectively
                                         the status of outstanding Information   implemented for identified SRR findings.
                                         Assurance Vulnerability Alerts
                                                                                 Selected a sample of SRRs and inspected
                                         (IAVAs) and the status of STIG
                                                                                 the VMS reports to confirm findings
                                         findings from the Security Readiness
                                                                                 identified by the SRR process have been
                                         Review (SRR) process. DECC
                                                                                 addressed.
                                         Mechanicsburg management is
                                         responsible for tracking and closing

                                                                          81

No.   Control Objectives            Control Activities                       Tests Performed                Results of Testing
                           all IAVA’s and STIG findings that
                                                                 Requested prior audit reports or reviews
                           resulted from the SRR process.
                                                                 and confirmed remediation had occurred
                                                                 for the findings and recommendations
                           1.3.2 DFAS Saufley Field              presented within.
                           Remediation plans detail corrective
                           actions in response to findings
                                                                 DFAS Saufley Field
                           identified in audits of DCPS or
                           DFAS. Management has approved         Requested prior audit reports or reviews
                           the remediation plan and monitors     and confirmed remediation has occurred
                           progress of the plan.                 for the findings and recommendations
                                                                 presented within the reports. Requested
                                                                 remediation plans intended to address
                                                                 previous findings to confirm remediation
                                                                 had been initiated.




                                                           82

No.      Control Objectives             Control Activities                       Tests Performed                   Results of Testing

2     Risk Assessment

      Risk assessments are      2.1.1 DISA DECC Mechanicsburg &      DISA DECC Mechanicsburg                     No relevant exception
2.1
      performed according to    DFAS Saufley Field                                                               noted.
                                                                     Inquired with the Information System
      current Federal and DoD
                                DoD and DFAS policy both direct an   Security Officer (ISSO) and related
      requirements.
                                annual IA review.                    security personnel and inquired how often
                                                                     the risk assessment process occurs.
                                                                     Observed the SRR process and confirmed
                                                                     how often it occurs and that deficiencies
                                                                     and corrective actions are tracked.
                                                                     Selected a sample of SRRs performed to
                                                                     inspect the Vulnerability Management
                                                                     System (VMS) reports to confirm
                                                                     findings identified by the SRR process
                                                                     have been addressed.


                                                                     DFAS Saufley Field
                                                                     Inquired with the ISSO and related
                                                                     security personnel and inquired how often
                                                                     the risk assessment process occurs.
                                                                     Inspected the lasted Risk Assessment,
                                                                     which should be included with the
                                                                     System Security Authorization
                                                                     Agreement (SSAA) to confirm that risks
                                                                     are periodically assessed.




                                                              83

No.      Control Objectives               Control Activities                       Tests Performed                   Results of Testing

3     Site Security Plans

      Site security plans are     3.1.1 DFAS Saufley Field              DFAS Saufley Field                         No relevant exception
3.1                                                                                                                noted.
      documented, approved, and
                                  DoD and DFAS policy both direct       Inspected the DCPS SSAA to confirm it
      are current.
                                  annual IA review. Review              has been documented, kept current and
                                  appropriate generated documentation   appropriately approved by management.
                                  to ensure that these processes are
                                                                        Inspected DCPS Systems Security Policy,
                                  accomplished.
                                                                        Security Requirements, and Certification
                                                                        Test and Evaluation Plan and Procedures
                                                                        to confirm that each has been updated.




                                                                 84

No.       Control Objectives                 Control Activities                       Tests Performed                    Results of Testing

4     Security Management Structure

      A security management          4.1.1 DFAS Saufley Field             DFAS Saufley Field                           No relevant exception
4.1
      structure has been                                                                                               noted.
                                     The DCPS SSAA describes the IA       Confirmed through inquiry that a
      established with DCPS.
                                     operations of the DoD information    management structure had been
                                     system and clearly delineates IA     established.
                                     responsibilities and expected
                                                                          Obtained and inspected security
                                     behavior of all personnel.
                                                                          management organization chart.
                                                                          Requested one position description for
                                                                          each function listed on the organization
                                                                          chart to confirm that positions were
                                                                          established in writing.
                                                                          Inspected the SSAA for the security
                                                                          management structure. Confirmed each
                                                                          position function is outlined in the SSAA.


      Information security           4.2.1 DISA DECC Mechanicsburg &      DISA DECC Mechanicsburg                      No relevant exception
4.2
      responsibilities are clearly   DFAS Saufley Field                                                                noted.
                                                                          Inspected signed rules of behavior
      assigned.
                                     The DISA SMC-ME SSAA and the         statements for the DISA personnel with
                                     DCPS SSAA both describe the IA       access to DCPS and the underlying
                                     operations of the DoD information    operating system.
                                     system and clearly delineate IA
                                     responsibilities and expected
                                     behavior of all personnel.           DFAS Saufley Field
                                                                          Inspected the SSAA for the security
                                                                          management responsibilities. Confirmed
                                                                          that each position is outlined in the SSAA
                                                                          is filled by personnel and the personnel
                                                                          understand their duties.




                                                                    85

No.   Control Objectives   Control Activities                    Tests Performed               Results of Testing

                                                      Inspected signed rules of behavior
                                                      statements for the DFAS personnel with
                                                      access to DCPS.




                                                86

No.       Control Objectives                   Control Activities                           Tests Performed                    Results of Testing
                                      4.3.2 DFAS Saufley Field
      Employees are aware of                                                   DFAS Saufley Field                            No relevant exception
4.3                                   Ongoing security awareness
      security policies.                                                                                                     noted.
                                      programs that include initial training   Inspected the Security Awareness
                                      and periodic refresher training.         Training materials.
                                                                               Obtained a list of employees who have
                                                                               access to DCPS. Selected a sample of
                                                                               employees who have DCPS access and
                                                                               inspected their training files to confirm
                                                                               the completion of the necessary security
                                                                               training and a signoff.
                                                                               Obtained evidence that management has
                                                                               active security awareness programs in
                                                                               place (i.e. electronic mail files, or other
                                                                               policy distribution mechanisms) that
                                                                               proactively emphasize the security
                                                                               policies to data owners and users.


      A comprehensive                 4.4.1 DISA DECC Mechanicsburg            DISA DECC Mechanicsburg                       No relevant exception
4.4
      vulnerability management                                                                                               noted.
                                      Vulnerabilities are tracked in the       Obtained the VMS reports for the audit
      process that includes the
                                      Vulnerability Management System          period for DCPS and confirmed
      systematic identification and
                                      (VMS) database. Prior to connection      vulnerabilities are being tracked and
      mitigation of software and
                                      to the network, the SA must run a        resolved in a timely manner.
      hardware vulnerabilities is
                                      VS08 report detailing Information
      in place.
                                      Assurance Vulnerability
                                      Management (IAVM) notices for the
                                      asset’s operating system. All IAVM
                                      notices must be mitigated and
                                      applicable patches loaded prior to
                                      connecting the asset to the network.
                                      Once all checklists have been applied
                                      from the Security Technical
                                      Information Guide (STIG) and the
                                      patches from the vulnerability alerts
                                      have been installed, a self assessment

                                                                        87

No.   Control Objectives            Control Activities              Tests Performed   Results of Testing
                           and a Retina network scan will be
                           conducted. Security assessments that
                           require a scan will use the Retina
                           scanner and the FSO Full Scan
                           Policy. The scan will be conducted
                           using a direct connection from the
                           system running the scanner to the
                           system being assessed or the site is
                           authorized to connect the asset to an
                           isolated network during the Retina
                           scan. Each site will place their self-
                           assessment in the VMS Database. If
                           the systems have a database, web
                           server, or any other software that has
                           a STIG, they must place those self
                           assessments in VMS as well. The
                           network scan must be run with all
                           database instances and all web
                           servers running.




                                                            88

No.       Control Objectives                   Control Activities                           Tests Performed                      Results of Testing

5     Personnel Policies

                                                                                                                               DFAS Saufley Field
      Employee (Government or         DFAS Saufley Field                        DFAS Saufley Field
5.1
      contractor) background          The DCPS SSAA requires system
                                                                                Requested, obtained, and inspected the         For 2 of the 45 sampled
      investigations, hiring,         users to be subjected to various levels
                                                                                policies and procedures for gaining access     DCPS users from
      transferring, and termination   of Personnel Security Investigations
                                                                                to sensitive information.                      DFAS TSO PE, the
      policies address security and   (PSI’s) based on the level of access
                                                                                                                               Justification for Access
      are in compliance with DoD      or privileges they have within the        Obtained a listing of all personnel
                                                                                                                               (block 13) on the
      Instruction 8500.02.            systems. The higher the level of          associated with DCPS. Selected a sample
                                                                                                                               DD2875 Access
                                      access, the more stringent the            of DCPS users and obtained the SAAR
                                                                                                                               Request Form was not
                                      required investigation becomes. As a      Form 2875 for each. Confirmed that each
                                                                                                                               complete.
                                      minimum, all DFAS DCPS                    SAAR Form 2875 details the user’s
                                      personnel/employees (military,            justification for access, security clearance
                                                                                                                               For 4 of the 45 sampled
                                      civilian or contractors) will have a      level, and the proper approvals.
                                                                                                                               DCPS users from
                                      favorably completed NAC.
                                                                                                                               DFAS TSO PE, the
                                                                                                                               Justification for Access
                                                                                                                               (block 13) on the
                                                                                                                               DD2875 Access
                                                                                                                               Request Form was not
                                                                                                                               specific to job duties.

                                                                                                                               DFAS management
                                                                                                                               indicated the testing
                                                                                                                               exception was caused
                                                                                                                               by an administrative
                                                                                                                               error and the exception
                                                                                                                               was not significant
                                                                                                                               enough to prevent the
                                                                                                                               control activity from
                                                                                                                               meeting its related
                                                                                                                               control objective.




                                                                        89

No.       Control Objectives                  Control Activities                        Tests Performed                 Results of Testing

      Job descriptions for           5.2.1 DISA DECC Mechanicsburg          DISA DECC Mechanicsburg                   No relevant exception
5.2
      Government employees           and DFAS Saufley Field                                                           noted.
                                                                            Inspected the job descriptions for the
      have been documented, and
                                     Developed position descriptions for    applicable types of personnel.
      employees understand their
                                     distinct system support positions.
      duties and responsibilities.
                                                                            DFAS Saufley Field
                                                                            Inspected the job descriptions for the
                                                                            applicable types of personnel listed in
                                                                            control objective # 5.1.


                                     5.2.2 DISA DECC Mechanicsburg          DISA DECC Mechanicsburg                   No relevant exception
                                     and DFAS Saufley Field                                                           noted.
                                                                            Selected a sample of employees and
                                     Position descriptions are available    confirmed through inquiry that they
                                     and Performance Plans are provided     understood their duties and
                                     to assist employees in understanding   responsibilities.
                                     their roles and responsibilities
                                                                            Observed documentation to confirm that
                                     according to their assigned duties.
                                                                            employees have signed position
                                                                            descriptions.


                                                                            DFAS Saufley Field
                                                                            Selected a sample of employees and
                                                                            confirmed through inquiry that they
                                                                            understood their duties and
                                                                            responsibilities.
                                                                            Observed documentation to confirm that
                                                                            employees have signed their performance
                                                                            plans.




                                                                     90

No.      Control Objectives                Control Activities                          Tests Performed                      Results of Testing
                                  5.2.3 DFAS Saufley Field                 DFAS Saufley Field                             No relevant exception
                                  All DFAS personnel are required to       Inspected the hiring, transfer, termination    noted.
                                  complete initial and periodic IA         and performance policies to confirm they
                                  training. This training helps the        are documented and address security.
                                  employee understand the importance
                                                                           Confirmed though inquiry that debriefs
                                  of their roles and responsibilities.
                                                                           are conducted when employees are
                                                                           terminated and that a HR Checklist is
                                                                           used to note the collection of DFAS
                                                                           property.
                                                                           Confirmed through observation that an
                                                                           email is sent to the System Administrator
                                                                           to request that system access be removed
                                                                           for a terminated employee.
      Employee (Government or     5.3.1 DISA Mechanicsburg & DFAS          DISA DECC Mechanicsburg                        DISA DECC
5.3   contractor) is adequately   Saufley Field                            Confirmed through inquiry that a training      Mechanicsburg
      trained and possess the     A program is implemented to ensure       program has been established.
      required skills.            that upon arrival and periodically       Requested documentation to confirm the         For 2 of the 22 DISA
                                  thereafter, all personnel receive        existence of this training program.            DECC Mechanicsburg
                                  training and familiarization to          (examples can include: individual              employees selected in
                                  perform their assigned IA                training plans, job specific training plans,   the sample, the
                                  responsibilities, to include             policy for requirements of training)           employee’s Individual
                                  familiarization with their prescribed    If training is conducted in-house,             Development Plans do
                                  roles in all IA- related plans such as   inspected the training materials to            not have job related
                                  incident response, configuration         confirm that they provided personnel with      training scheduled.
                                  management and COOP or disaster          adequate training and expertise.               Specifically, only 1
                                  recovery.                                Selected a sample of employees who have        training session had
                                                                           access to DCPS and inspected their             been scheduled and it
                                                                           training records to confirm specific job       was unrelated to the
                                                                           function training is occurring                 employee’s job
                                                                                                                          function.

                                                                           DFAS Saufley Field                             For 1 of the 22 DISA
                                                                                                                          DECC Mechanicsburg
                                                                           Confirmed through inquiry that a training
                                                                                                                          employees selected in
                                                                           program has been established
                                                                                                                          the sample, the


                                                                   91

No.   Control Objectives   Control Activities                      Tests Performed                     Results of Testing
                                                                                                     employee’s Individual
                                                      Requested documentation to confirm the
                                                                                                     Development Plan does
                                                      existence of this training program.
                                                                                                     not have any training
                                                      (examples can include: individual
                                                                                                     scheduled.
                                                      training plans, job specific training plans,
                                                      policy for requirements of training)
                                                                                                     DISA management
                                                      If training is conducted in-house,             indicated the testing
                                                      inspected the training materials to            exception was caused
                                                      confirm that they provided personnel with      by an administrative
                                                      adequate training and expertise and that       error and the exception
                                                      they are up to date.                           was not significant
                                                                                                     enough to prevent the
                                                      Selected a sample of employees who have
                                                                                                     control activity from
                                                      access to DCPS and inspected their
                                                                                                     meeting its related
                                                      training records to confirm specific job
                                                                                                     control objective.
                                                      function training is occurring.
                                                                                                     DFAS Saufley Field

                                                                                                     No relevant exception
                                                                                                     noted.




                                                92

No.       Control Objectives                  Control Activities                         Tests Performed                    Results of Testing

6     Information Resources Classification

      Resource classifications and   6.1.1 DISA DECC Mechanicsburg           DISA DECC Mechanicsburg                      No relevant exception
6.1
      related criteria have been                                                                                          noted.
                                     DFAS Management has classified          Inquired with management as to the
      established.
                                     DCPS according to appropriate           process for identifying and prioritizing
                                     Mission Assurance Category (MAC)        critical data and operations.
                                     level standards and is identified
                                                                             Obtained documentation that supports
                                     within the Service Level Agreement
                                                                             this process and confirmed that it is
                                     (SLA) between DISA and DFAS.
                                                                             current and was approved by
                                                                             management.
                                     DFAS Saufley Field
                                     DFAS Management has classified          DFAS Saufley Field
                                     DCPS according to appropriate MAC
                                                                             Inquired with management as to the
                                     level standards and is identified
                                                                             process for identifying and prioritizing
                                     within the SLA between DISA and
                                                                             critical data and operations.
                                     DFAS.
                                                                             Obtained documentation that supports
                                                                             this process and confirmed that it is
                                                                             current and was approved by
                                                                             management.


                                     6.1.2 DISA DECC Mechanicsburg           DISA DECC Mechanicsburg                      No relevant exception
                                                                                                                          noted.
                                     DFAS Management has identified          Corroborated with key personnel that
                                     DCPS resources supporting critical      identification of resources supporting
                                     operations based on the nature and      critical operations is based on the nature
                                     impact of the disaster. The resources   and impact of the disaster.
                                     are included in the DISA SMC ME
                                                                             Obtained and inspected the business
                                     Business Continuity Plan as
                                                                             continuity plan and confirmed that
                                     prescribed in the Service Level
                                                                             supporting critical operations are
                                     Agreement between DISA and
                                                                             identified, emergency priorities are
                                     DFAS.
                                                                             established, and they were approved by

                                                                     93

No.       Control Objectives                  Control Activities                         Tests Performed                    Results of Testing
                                                                             management.

                                     DFAS Saufley Field
                                                                             DFAS Saufley Field
                                     DFAS management has identified
                                     DCPS resources supporting critical      Corroborated with key personnel that
                                     operations based on the nature and      identification of resources supporting
                                     impact of the disaster. The resources   critical operations is based on the nature
                                     are included in the DISA SMC ME         and impact of the disaster.
                                     Business Continuity Plan as
                                                                             Obtained and inspected the business
                                     prescribed in the SLA between DISA
                                                                             continuity plan and confirmed that
                                     and DFAS.
                                                                             supporting critical operations are
                                                                             identified, emergency priorities are
                                                                             established, and they were approved by
                                                                             management.



                                                                                                                          DFAS Saufley Field
      DFAS has classified all        6.2.1 DFAS Saufley Field                DFAS Saufley Field
6.2   DFAS-owned assets
                                     Management has classified DCPS          Inspected the DCPS SSAA and confirmed        DFAS does not have
      according to criticality and
                                     according to appropriate MAC level      that a MAC level had been assigned to        MOAs in place for 4 of
      sensitivity.
                                     standards.                              DCPS.                                        the 81 DCPS interfaces.
                                                                             Inquired with data owners and confirmed
                                                                             that a MAC level has been assigned to
                                                                             DCPS.


                                                                             Inspected the DCPS Service Level
                                                                             Agreement (SLA) between DFAS and
                                                                             DISA to determine the classification of
                                                                             DCPS communicated to DISA.




                                                                     94

No.       Control Objectives                  Control Activities                         Tests Performed                  Results of Testing
                                                                                                                        DFAS Saufley Field
      Data management and the        6.3.1 DFAS Saufley Field                DFAS Saufley Field
6.3   disposition and sharing of
                                     Documented policies and procedures      Inspected documents authorizing file       DFAS does not have
      data requirements are
                                     are in the DCPS SSAA that governs       sharing and file sharing agreements and    MOAs in place for 4 of
      identified in the SLAs.
                                     the sharing of data.                    confirmed the owners approve the sharing   the 81 DCPS interfaces.
                                                                             of data. In many cases these documents
                                                                             are called a Memorandum of
                                                                             Understanding (MOU) or SLA.
                                                                             Inspected the DCPS SSAA and confirmed
                                                                             that a MAC level had been assigned to
                                                                             DCPS.
                                                                             Inquired with data owners and confirmed
                                                                             that a MAC level has been assigned to
                                                                             DCPS.
                                                                             Inquired with data owners and confirmed
                                                                             that an MOU has been developed and is
                                                                             in place for each DCPS interface.


                                                                                                                        DFAS Saufley Field
      DCPS has logical controls      6.4.1 DFAS Saufley Field                DFAS Saufley Field
6.4
      over data files and software                                           Requested a complete DCPS user list.
                                     The System Access Authorization                                                    DCPS does not use
      programs.                                                              Selected a sample of users from the list
                                     Request (SAAR) DD-2875 form is                                                     complex password
                                                                             and inspected their user access request
                                     used to identify authorized users and                                              configuration. In
                                                                             forms for existence and management
                                     control their access.                                                              addition, DCPS does
                                                                             approval.
                                                                                                                        not require at least four
                                                                             Observed the application to confirm that   characters be changed
                                                                             users must possess a valid User ID and     when a new password is
                                                                             Password to gain access to the system.     created.
                                                                             Interviewed owners and observed
                                                                                                                        Two of the 20
                                                                             supporting documentation to confirm that
                                                                                                                        terminated DFAS
                                                                             inappropriate access is removed in a
                                                                                                                        Saufley Field
                                                                             timely manner.
                                                                                                                        employees and
                                                                             Interviewed security managers and          contractors were not


                                                                      95

No.   Control Objectives            Control Activities                       Tests Performed                    Results of Testing
                                                                 confirmed that supporting documentation      removed from DCPS
                                                                 was provided to them.                        within 24 hours of the
                                                                                                              user deactivation
                                                                 Obtained a representative sample of
                                                                                                              request sent in the
                                                                 profile changes and activity logs and
                                                                                                              personnel action email
                                                                 confirmed that management reviewed the
                                                                                                              by Human Resources.
                                                                 changes and logs.
                                                                 Obtained a list of recently terminated
                                                                 employees from personnel. Selected a
                                                                 representative sample of terminated
                                                                 employees and confirmed that system
                                                                 access was promptly terminated.


                           6.4.2 DISA DECC Mechanicsburg         DISA DECC Mechanicsburg
                                                                                                              No relevant exception
                           The DISA System Support Office
                                                                 Confirmed through inquiry and inspection     noted.
                           (SSO), a unit independent of SMC
                                                                 of the root access users for the DCPS
                           operations, is responsible for
                                                                 servers, that the access restrictions have
                           maintaining the system libraries
                                                                 been established around the data files and
                           however SMC Operations performs
                                                                 software programs.
                           the library installation. Access to
                           system libraries is restricted to     Inspected the access logs and
                           authorized individuals including      corroborated with management that the
                           system programmers at SSO and         access logs are reviewed for inappropriate
                           SMC-ME.                               access and that system libraries were
                                                                 managed and maintained to protect
                                                                 privileged programs.




                                                           96

No.       Control Objectives                  Control Activities                         Tests Performed                    Results of Testing

7     User Account Management

                                                                                                                          DISA DECC
      Authorized owners and their    7.1.1 DISA DECC Mechanicsburg &         DISA DECC Mechanicsburg
7.1                                                                                                                       Mechanicsburg
      access rights are identified   DFAS Saufley Field
                                                                             Inspected the policies and procedures for
      for DISA/DFAS-owned
                                     User accounts are suspended after 30    restricting access to the systems software   For 1 of the 45 sampled
      assets
                                     days of no activity, (60 days for TSO   to confirm that they were up-to-date.        DCPS users from DISA
      Access authorizations are      and Payroll offices) and removed                                                     DECC Mechanicsburg,
                                                                             Obtained a list from the Discretionary
      appropriately limited.         after 90 days. Accounts are                                                          the Justification for
                                                                             Access Control (DAC) of individuals who
                                     approved by IA Officers.                                                             Access (block 13) on
                                                                             had direct access to the system software
                                                                                                                          the DD2875 Access
                                                                             and selected a sample of users with direct
                                                                                                                          Request Form was not
                                                                             access.
                                                                                                                          complete.
                                                                             For each user selected, confirmed with
                                                                             key management personnel that these          For 3 of the 45 sampled
                                                                             users were authorized to have this access.   DCPS users from DISA
                                                                                                                          DECC Mechanicsburg,
                                                                             Inquired with key management that
                                                                                                                          the Justification for
                                                                             suspension and termination of access is
                                                                                                                          Access (block 13) on
                                                                             performed according to the policies and
                                                                                                                          the DD2875 Access
                                                                             procedures.
                                                                                                                          Request Form was not
                                                                             Interviewed owners and observed              specific to job duties.
                                                                             supporting documentation to confirm that
                                                                             inappropriate access is removed in a         DFAS management
                                                                             timely manner.                               indicated the testing
                                                                                                                          exception was caused
                                                                             Obtained a list of recently terminated
                                                                                                                          by an administrative
                                                                             employees from personnel. Selected a
                                                                                                                          error and the exception
                                                                             representative sample of terminated
                                                                                                                          was not significant
                                                                             employees and confirmed that system
                                                                                                                          enough to prevent the
                                                                             access was promptly terminated.
                                                                                                                          control activity from
                                                                                                                          meeting its related
                                                                                                                          control objective.
                                                                             DFAS Saufley Field
                                                                             Inspected the policies and procedures for


                                                                     97

No.   Control Objectives   Control Activities                     Tests Performed                    Results of Testing
                                                      restricting access to the DCPS application   DFAS Saufley Field
                                                      software to confirm that they were up-to-
                                                      date.                                        For 2 of the 45 sampled
                                                                                                   DCPS users from
                                                      Obtained a list from the DAC of
                                                                                                   DFAS Saufley Field,
                                                      individuals who had direct access to the
                                                                                                   the Justification for
                                                      DCPS application software and selected a
                                                                                                   Access (block 13) on
                                                      sample of users with direct access. For
                                                                                                   the DD2875 Access
                                                      each user selected, confirmed with key
                                                                                                   Request Form was not
                                                      management personnel that these users
                                                                                                   complete.
                                                      were authorized to have this access.
                                                      Inquired with key management that            For 4 of the 45 sampled
                                                      suspension and termination of access is      DCPS users from
                                                      performed according to the policies and      DFAS Saufley Field,
                                                      procedures.                                  the Justification for
                                                                                                   Access (block 13) on
                                                      Interviewed owners and observed
                                                                                                   the DD2875 Access
                                                      supporting documentation to confirm that
                                                                                                   Request Form was not
                                                      inappropriate access is removed in a
                                                                                                   specific to job duties.
                                                      timely manner.
                                                      Obtained a list of recently terminated       One of the 45 sampled
                                                      employees from personnel. Selected a         DCPS users from
                                                      representative sample of terminated          DFAS Saufley Field did
                                                      employees and confirmed that system          not check the box
                                                      access was promptly terminated.              indicating they received
                                                                                                   IA Training and
                                                                                                   Awareness Certification
                                                                                                   on the DD2875 Access
                                                                                                   Request Form.

                                                                                                   Two of the 20
                                                                                                   terminated DFAS
                                                                                                   Saufley Field
                                                                                                   employees and
                                                                                                   contractors appear to
                                                                                                   not have been removed


                                                98

No.       Control Objectives                   Control Activities                          Tests Performed                    Results of Testing
                                                                                                                            from DCPS within 24
                                                                                                                            hours of the user
                                                                                                                            deactivation request
                                                                                                                            sent in the personnel
                                                                                                                            action email by Human
                                                                                                                            Resources.

                                                                                                                            DFAS management
                                                                                                                            indicated the testing
                                                                                                                            exception was caused
                                                                                                                            by an administrative
                                                                                                                            error and the exception
                                                                                                                            was not significant
                                                                                                                            enough to prevent the
                                                                                                                            control activity from
                                                                                                                            meeting its related
                                                                                                                            control objective.


      IAOs or SAs periodically        7.2.1 DISA DECC Mechanicsburg            DISA DECC Mechanicsburg
7.2                                                                                                                         No relevant exception
      review authorization listings
                                      Access to the system software is         Inquired with key Mechanicsburg              noted.
      to determine
                                      administered based on roles.             personnel to confirm how root and or
      appropriateness.
                                                                               privileged access is administered.
      Policies and techniques
                                                                               Obtained the list of individuals with root
      have been implemented for
                                                                               and or privileged access.
      using and monitoring use of
      system utilities.                                                        Inquired with Management that root and
                                                                               privileged access is appropriate and that
                                                                               the use of these accounts is logged.
                                                                               Inspected a sample of the audit logs from
                                                                               the DCPS servers to confirm that key
                                                                               personnel review the logs on a regular
                                                                               basis and that any issues noted are
                                                                               documented and researched.




                                                                         99

No.      Control Objectives             Control Activities                     Tests Performed                   Results of Testing

      Emergency and temporary   7.3.1 DISA DECC Mechanicsburg &     DISA DECC Mechanicsburg                    No relevant exception
7.3
      access is controlled.     DFAS Saufley Field                                                             noted.
                                                                    Inspected the emergency and temporary
                                Emergency and temporary access      access policy.
                                authorizations are controlled in
                                                                    Selected a sample of emergency and
                                accordance with DoD 5200.1-R;
                                                                    temporary access and
                                DoD 5200.2-R; DoDD 8500.1; and
                                DoDI 8500.2. Accounts are               •   confirmed that the authorization
                                approved by the IA officers.                was approved and that access
                                                                            was closed in a timely manner;
                                                                        •   confirmed that the emergency
                                                                            and temporary access list is
                                                                            periodically reviewed; and
                                                                        •   confirmed that temporary access
                                                                            authorizations were established
                                                                            for least privileged need-to-
                                                                            know access.


                                                                    DFAS Saufley Field
                                                                    Inspected the emergency and temporary
                                                                    access policy.
                                                                    Selected a sample of emergency and
                                                                    temporary access and:
                                                                        •   confirmed that the authorization
                                                                            was approved and that access
                                                                            was closed in a timely manner;
                                                                        •   confirmed that the emergency
                                                                            and temporary access list is
                                                                            periodically reviewed; and

                                                                        •   confirmed that temporary access
                                                                            authorizations were established

                                                             100

No.       Control Objectives                 Control Activities                          Tests Performed                     Results of Testing
                                                                                      for least privileged need-to-
                                                                                      know access.


      Group authenticators for      7.4.1 DFAS Saufley Field                 DFAS Saufley Field                            DFAS Saufley Field
7.4
      application or network
                                    Group authenticators are not used for    Confirmed through inquiry if group            There are no formal
      access may be used only in
                                    DCPS or network access. Upon             authenticators for application and            Standard Operating
      conjunction with an
                                    initial system login, a user’s actions   network are used. Inquired to understand      Procedures for the
      individual authenticator
                                    are tracked based on their unique        the reason behind the usage of group          review of the
                                    user account.                            authenticators. Inquired if users are         Operations Job Logs.
                                                                             authenticated individually prior to the use
                                                                             of a group authenticator. Confirmed
                                                                             through observation that group
                                                                             authentication is used by the operations
                                                                             group; however, mitigation controls are in
                                                                             place.




No.       Control Objectives                 Control Activities                          Tests Performed                     Results of Testing

8     Physical Security

                                                                                                                           DFAS Saufley Field
      Building, administration,     DFAS Saufley Field                       DFAS Saufley Field
8.2
      and computer facility
                                    DFAS facilities at DFAS Saufley          Inquired with facility management as to        No relevant exception
      physical controls have been
                                    Field have implemented adequate          the physical security controls in place.      noted
      implemented.
                                    physical security controls in            Confirmed through observation that these
                                    accordance with DODI 8500.2.             controls are in place. Obtained results of
                                                                             most recent facility penetration testing
                                    Physical access points are guarded or
                                                                             and confirmed that management reviewed
                                    alarmed 24 hours a day.
                                                                             the results of the test.
                                    The Random Anti-Terrorism
                                    Measures (RAM) process is in place

                                                                     101

No.       Control Objectives               Control Activities                          Tests Performed                    Results of Testing
                                 that includes periodic, unannounced
                                 attempts to penetrate DFAS facilities.
                                 Only authorized personnel with
                                 appropriate access approval are
                                 granted physical access.


                                                                                                                        DFAS Saufley Field
      Visitors are controlled.   8.3.2 DFAS Saufley Field                  DFAS Saufley Field
8.3
                                 All visitors must sign in and out on      Inspected the visitor policy and procedure   Visitor log policy at
                                 the visitor control log located in the    to confirm it is documented.                 DFAS Saufley Field is
                                 main lobby.                                                                            not consistently
                                                                           Confirmed through inquiry that all
                                                                                                                        followed. For 1 day, a
                                                                           visitors are controlled.
                                                                                                                        Point of Contact for an
                                 The DCPS SSAA requires all non-           Confirmed through inquiry and                entry was missing, and
                                 cleared personnel to be escorted at all   observation that visitor access to DoD       for another day a visitor
                                 times while inside the building.          information was determined by both its       organization was
                                                                           classification and user need-to-know.        missing for an entry.
                                                                           Obtained the visitor check in log for a
                                                                           sample of normal business days.              DFAS management
                                                                           Confirmed the log has been completed         indicated the testing
                                                                           according to the visitor policies and        exception was caused
                                                                           procedures.                                  by an administrative
                                                                                                                        error and the exception
                                                                                                                        was not significant
                                                                                                                        enough to prevent the
                                                                                                                        control activity from
                                                                                                                        meeting its related
                                                                                                                        control objective.




                                                                   102

No.       Control Objectives                Control Activities                          Tests Performed                      Results of Testing

9     Logical Access

                                                                                                                           DISA DECC
      Access settings have been    9.1.1 DISA DECC Mechanicsburg           DISA DECC Mechanicsburg
9.1                                                                                                                        Mechanicsburg
      implemented in accordance
                                   Access settings have been               Obtained a sample of users with access to
      with the access
                                   implemented in accordance with the      DCPS LPAR and obtained the SAAR                 For 1 of the 45 sampled
      authorizations established
                                   access authorizations established by    Form DD2875 for the sampled personnel.          DCPS users from DISA
      by the resource owners.
                                   signature authority of resource owner   Confirmed that each Form 2875 details           DECC Mechanicsburg,
                                   on Form DD2875 and in accordance        the user’s justification for access, security   the Justification for
                                   with DoDD 8500.1; DoDI 8500.2           clearance level, and that each Form 2875        Access (block 13) on
                                   and STIGs.                              is properly approved.                           the DD2875 Access
                                                                                                                           Request Form was not
                                                                                                                           complete.
                                   9.1.2 DFAS Saufley Field                DFAS Saufley Field
                                                                                                                           For 3 of the 45 sampled
                                   The TSO assigns security profiles to    Observed the DCPS system to confirm
                                                                                                                           DCPS users from DISA
                                   each userid based on need to know as    that each user account was assigned a
                                                                                                                           DECC Mechanicsburg,
                                   demonstrated by an approved Form        Security Profile that restricts access by
                                                                                                                           the Justification for
                                   DD2875, request for system access.      module or program.
                                                                                                                           Access (block 13) on
                                   TSO PE Database Administrator also
                                                                                                                           the DD2875 Access
                                   assigns security profiles to            Requested a complete DCPS user list.
                                                                                                                           Request Form was not
                                   development users through the           Selected a sample of users from the list
                                                                                                                           specific to job duties.
                                   Integrated Database Management          and inspected heir Form DD2875s that
                                   System (IDMS) which restricts           detail the user’s justification for access,
                                                                                                                           DISA DECC
                                   access to program libraries and         security clearance level and inspect for
                                                                                                                           Mechanicsburg
                                   databases.                              existence and approval by management.
                                                                                                                           management indicated
                                                                                                                           the testing exception
                                                                                                                           was caused by an
                                                                                                                           administrative error and
                                                                                                                           the exception was not
                                                                                                                           significant enough to
                                                                                                                           prevent the control
                                                                                                                           activity from meeting
                                                                                                                           its related control
                                                                                                                           objective.


                                                                  103

No.   Control Objectives   Control Activities          Tests Performed     Results of Testing


                                                                         DFAS Saufley Field

                                                                         For 2 of the 45 sampled
                                                                         DCPS users from
                                                                         DFAS Saufley Field,
                                                                         the Justification for
                                                                         Access (block 13) on
                                                                         the DD2875 Access
                                                                         Request Form was not
                                                                         complete.

                                                                         For 4 of the 45 sampled
                                                                         DCPS users from
                                                                         DFAS Saufley Field,
                                                                         the Justification for
                                                                         Access (block 13) on
                                                                         the DD2875 Access
                                                                         Request Form was not
                                                                         specific to job duties.

                                                                         One of the 45 sampled
                                                                         DCPS users from
                                                                         DFAS Saufley Field did
                                                                         not check the box
                                                                         indicating they received
                                                                         IA Training and
                                                                         Awareness Certification
                                                                         on the DD2875 Access
                                                                         Request Form.

                                                                         Two of the 20
                                                                         terminated DFAS
                                                                         Saufley Field
                                                                         employees and
                                                                         contractors appear to


                                                104

No.       Control Objectives                 Control Activities                       Tests Performed                     Results of Testing
                                                                                                                        not have been removed
                                                                                                                        from DCPS within 24
                                                                                                                        hours of the user
                                                                                                                        deactivation request
                                                                                                                        sent in the personnel
                                                                                                                        action email by Human
                                                                                                                        Resources.

                                                                                                                        DFAS management
                                                                                                                        indicated the testing
                                                                                                                        exception was caused
                                                                                                                        by an administrative
                                                                                                                        error and the exception
                                                                                                                        was not significant
                                                                                                                        enough to prevent the
                                                                                                                        control activity from
                                                                                                                        meeting its related
                                                                                                                        control objective.

                                                                                                                        DFAS Saufley Field
      Passwords, tokens, or other    9.2.1 DFAS Saufley Field             DFAS Saufley Field
9.2
      devices are used to identify
                                     User IDs and passwords are           Observed that each user account was           DCPS does not use
      and authenticate users.
                                     configured according to DoD          assigned a Security Profile that restricted   complex password
                                     standards.                           access by module and program.                 configuration. ACF2
                                                                                                                        does support complex
                                                                          Observed the DCPS application to
                                                                                                                        passwords; however,
                                                                          confirm that users needed a valid User ID
                                                                                                                        DISA and DFAS are in
                                                                          and password to gain access to the
                                                                                                                        the process of
                                                                          system.
                                                                                                                        transitioning the
                                                                          Inspected system parameters to make           security configuration
                                                                          certain that the system requires a User ID    for MZF to allow the
                                                                          and password.                                 use of complex
                                                                                                                        passwords. In addition,
                                                                                                                        DCPS does not require
                                                                                                                        that at least four



                                                                   105

No.   Control Objectives            Control Activities                          Tests Performed                    Results of Testing
                                                                                                                 characters be changed
                                                                                                                 when a new password is
                                                                                                                 created.




                                                                                                                 DISA DECC
                           9.2.2 DISA DECC Mechanicsburg            DISA DECC Mechanicsburg
                                                                                                                 Mechanicsburg
                           Multiple layers of access controls are   Confirmed through inquiry and
                           used including; Common Access            observation that passwords are used to       Currently ACF2
                           Card (CAC) and personal                  authenticate users.                          password parameters
                           identification number, DCPS user ID                                                   are not configured to
                                                                    Inspected system parameters to make
                           and password, and an RSA SecurID                                                      require the use of
                                                                    certain that the system requires a User ID
                           for Database Administration,                                                          special characters.
                                                                    and password.
                           Configuration Management,
                           Security, and Tech Support.              Inspected the Security Account Creation      ACF2 is not configured
                                                                    Guide to confirm that authentication         to require users to
                                                                    devices are in compliance with DoD           change at least four
                                                                    standards.                                   characters of their
                                                                                                                 previously used
                                                                                                                 passwords.




                                                           106

No.        Control Objectives                  Control Activities                         Tests Performed                   Results of Testing

10     Network and Telecommunications

       Telecommunication defense      10.1.1 DISA DECC Mechanicsburg          DISA DECC Mechanicsburg                     No relevant exception
10.1
       capabilities are                                                                                                   noted.
                                      SMC ME is in the process of             Inquired with security personnel if DCPS
       implemented.
                                      encrypting all data streams to the      data are transmitted through a commercial
       Unclassified, sensitive data   FIPS-140-2 standard                     or wireless network. Inquired with
       transmitted through a                                                  security personnel to confirm that NIST
       commercial or wireless                                                 cryptography was used to protect
       network are encrypted using                                            information when the information
       NIST-certified                                                         transmitted over commercial or wireless
       cryptography.                                                          networks.


       Conformance testing that       10.4.1 DISA DECC Mechanicsburg          DISA DECC Mechanicsburg                     No relevant exception
10.4
       includes periodic,                                                                                                 noted.
                                      DISA SMC ME performs monthly            Confirmed through inquiry that
       unannounced, in-depth
                                      scans to check for any DCPS             conformance testing are performed that
       monitoring and provides for
                                      network vulnerabilities. DCPS           include periodic, unannounced, in-depth
       specific penetration testing
                                      system and hardware are reviewed        monitoring and provided for specific
       to ensure compliance with
                                      through periodic SRR reviews that       penetration testing to confirm compliance
       all vulnerability mitigation
                                      are conducted by FSO on the DCPS        with vulnerability mitigation procedures
       procedures is planned,
                                      mainframe domain.                       was planned, scheduled, and conducted.
       scheduled, and conducted.
                                                                              Obtained and inspected documentation
                                                                              produced from this conformance testing
                                                                              to confirm vulnerability scans were
                                                                              completed.




                                                                       107

No.        Control Objectives                  Control Activities                          Tests Performed                     Results of Testing

12     Access Monitoring

       Audit trails are maintained.   12.1.1 DISA DECC Mechanicsburg           DISA DECC Mechanicsburg                       No relevant exception
12.1
                                      and DFAS Saufley Field                                                                 noted.
                                                                               Confirmed through inquiry that audit
                                      A security audit trail is implemented    trails are implemented for the MZF
                                      for each system that documents the       LPAR.
                                      identity of each person/device having
                                                                                Inspected the audit trails available and
                                      access to a system, the time of that
                                                                               confirmed what information is being
                                      access, user activity, and any actions
                                                                               logged.
                                      which attempt to change security
                                      levels or privileges established for     Confirmed through inquiry and
                                      the user. The management of the          observation that audit trails are
                                      audit trail is maintained by DISA.       maintained for at least 5 years.
                                                                               Confirmed through inquiry and inspection
                                                                               that the log is reviewed and signed off by
                                                                               management.


                                                                               DFAS Saufley Field
                                                                               Confirmed through inquiry that audit
                                                                               trails are implemented for the application.
                                                                               Inspected the audit trails available and
                                                                               confirmed what information is being
                                                                               logged.
                                                                               Confirmed through inquiry and
                                                                               observation that audit trails are
                                                                               maintained for at least 5 years.
                                                                               Confirmed through inquiry and inspection
                                                                               that the log is reviewed and signed off by
                                                                               management.




                                                                      108

No.        Control Objectives                    Control Activities                         Tests Performed                    Results of Testing



                                       12.1.3 DFAS Saufley Field                DFAS Saufley Field                           No relevant exception
                                                                                                                             noted.
                                       Adheres to DITSCAP requirements          Inspected the policy for protection of the
                                       for system access and content,           audit trails and confirmed the policy
                                       retention, and protection of audit       limits access to audit trails.
                                       trails. The most recent testing of
                                                                                Confirmed through inquiry and
                                       compliance with DITSCAP guidance
                                                                                observation that audit logs included
                                       is contained in the DCPS SSAA,
                                                                                activities that might modify, bypass, or
                                       Appendices H and P.
                                                                                negate safeguards controlled by the
                                                                                system and that Audit trails are protected
                                                                                against unauthorized access,
                                                                                modification, or deletion.
                                                                                Observed that only select/limited number
                                                                                of individuals such as the Information
                                                                                System Security officer (ISSO) and
                                                                                Information Assurance Manager have
                                                                                access to the audit trails.


       Suspicious network access       12.4.2 DFAS Saufley Field                 DFAS Saufley Field                          No relevant exception
12.4
       activity is investigated and                                             Inquired with personnel to confirm that      noted.
                                       DMI controls the configuration of
       appropriate action is taken.                                             the use of instant messaging is against
                                       computers and instant messaging
                                                                                DoD policy and determined how they
                                       program are not authorized. TSO PE
                                                                                control instant messaging. Inspected
                                       monitors application usage through
       Instant messaging traffic to                                             firewall rules to confirm instant
                                       an automated software auditing
       and from instant messaging                                               messaging is blocked.
                                       application that runs regularly when
       clients that are
                                       users logon to their workstation.
       independently configured by
       end users and that interact     Instant messaging programs are
       with a public service           identified as part of that auditing
       provider is prohibited within   process.
       DoD information systems.



                                                                         109

No.        Control Objectives                Control Activities                         Tests Performed                   Results of Testing

13     DCPS Change Management

       DISA or DFAS initiated       13.1.1 DISA DECC Mechanicsburg          DISA DECC Mechanicsburg                     No relevant exception
13.1
       application, software, or                                                                                        noted.
                                    Procedures addressing the testing of    Obtained and inspected the change
       hardware modifications are
                                    patches, upgrades, and new AIS          management policies and procedures for
       authorized, and the
                                    applications are documented.            systems software to confirm that they
       documentation is
                                                                            exist and are current.
       maintained.                  All changes to information systems
                                    at DISA SMC-ME are brought              Requested the full population of
                                    before at least one of two Change       code/database modifications from the
                                    Control Boards (CCBs). DISA             DCPS production code library which
                                    headquarters has Executive software     occurred during the audit period under
                                    CCB which is responsible for            review (7/01/06 through 6/30/07) and
                                    reviewing all major system changes      traced a sample of modifications to an
                                    such as new versions, new software,     approved System Change Request (SCR)
                                    and the removal of software. There is   or PTR.
                                    also a local CCB at DISA SMC-ME
                                                                            For each modification selected, obtained
                                    that meets on a weekly basis. The
                                                                            the change request document and
                                    local CCB is responsible for
                                                                            confirmed that it was approved by key
                                    reviewing all operating system
                                                                            personnel prior to implementation.
                                    upgrades and fixes. The local CCB is
                                    also responsible for alerting the       Confirmed that each modification was
                                    customer to the change and obtaining    tested and the test results were approved
                                    the customer approval before            prior to the modification being
                                    proceeding. Also, the local CCB is      implemented.
                                    responsible for maintaining the
                                                                            Confirmed the modification is
                                    change control records.
                                                                            documented by inspecting the SCR,
                                                                            System Test Plan (STP); detailed system
                                                                            specifications; and unit, system and
                                    13.1.2 DISA DECC Mechanicsburg
                                                                            acceptance testing results.
                                    The DISA Executive Software CCB
                                    consists of representatives of DISA
                                    management as well as all the DISA-
                                    SMCs. The DISA SMC-ME local


                                                                    110

No.   Control Objectives            Control Activities                          Tests Performed                     Results of Testing
                           CCB consists of all department heads
                           and the information assurance
                           manager (IAM).


                                                                                                                  DFAS Saufley Field
                           13.1.3 DFAS Saufley Field                DFAS Saufley Field
                           Testing of changes follows the           Using the same sample selected for            Two of the 45 sampled
                           approved process outlined in the         control objective 13.1, confirmed that the    DFAS Saufley Field
                           DFAS TSO Business Process                DCPS application changes followed the         test scripts did not
                           Handbook prior to implementation.        appropriate test and migration process by     reference the SCR
                                                                    inspecting the following for                  number.
                           A Testing Deficiency Report is
                                                                    completeness, authorization and software
                           issued for SCRs with negative test
                                                                    quality requirements:                         Testing results
                           results and the TDR is routed to the
                                                                       • system test plan (STP);                  documentation was not
                           appropriate individuals. If necessary,
                                                                                                                  maintained for 3 of the
                           an amendment is issued and
                                                                      •    detailed system specifications; and    45 sampled DFAS
                           processes through same approval
                                                                                                                  Saufley Field SCRs.
                           process as an SCR.
                                                                      •    unit, system and acceptance
                                                                           testing results.                       No documentation
                                                                                                                  exists which states
                                                                    Inquired with DCPS security personnel as      which configuration
                                                                    to their roles and responsibilities for the   items (CIs) are required
                                                                    release of security-related changes           to be tested prior to
                                                                    included in DCPS Releases.                    implementation.
                                                                    Observed release notes for the major
                                                                                                                  DFAS management
                                                                    DCPS production releases that occurred
                                                                                                                  indicated the testing
                                                                    during the audit period.
                                                                                                                  exception was caused
                                                                                                                  by an administrative
                                                                                                                  error and the exception
                                                                                                                  was not significant
                                                                                                                  enough to prevent the
                                                                                                                  control activity from
                                                                                                                  meeting its related
                                                                                                                  control objective.


                                                           111

No.        Control Objectives                 Control Activities                        Tests Performed                    Results of Testing

                                     13.1.4 DFAS Saufley Field              DFAS Saufley Field                           No relevant exception
                                                                                                                         noted.
                                     Release management staff is            Using the same sample selected for
                                     responsible for ensuring that all      control objective 13.1, confirmed that the
                                     programs are labeled and inventoried   changes had been labeled, assigned an ID,
                                     within the appropriate library.        and inventoried.


       New and modified              13.2.1 DFAS Saufley Field              DFAS Saufley Field                           DFAS Saufley Field
13.2
       application, hardware, and
                                     Release Management staff are           Using the same sample selected for           DFAS Saufley Field
       operating system or utility
                                     responsible for distribution or        control objective 13.1, confirmed that the   does not have a policy
       software is tested and
                                     implementation of new or revised       change followed the appropriate              outlining what types of
       controlled according to
                                     software.                              distribution process by inspecting the       SCR configuration
       specific criteria.
                                                                            release authorization report for             items (CI) are tested
                                                                            completeness and authorization.              prior to
                                                                                                                         implementation.
                                                                                                                         DFAS management
                                                                                                                         indicated the testing
                                                                                                                         exception was caused
                                                                                                                         by an administrative
                                                                                                                         error and the exception
                                                                                                                         was not significant
                                                                                                                         enough to prevent the
                                                                                                                         control activity from
                                                                                                                         meeting its related
                                                                                                                         control objective.

       Emergency changes are         13.3.1 DFAS Saufley Field              DFAS Saufley Field                           No relevant exception
13.3
       promptly approved.                                                                                                noted.
                                     A configuration management plan is     Using the same sample selected for
                                     implemented for software               control objective 13.1, confirmed through
                                     modifications; contained in the        inspection that the DCPS emergency
                                     DFAS TSO Business Process              changes been authorized by the Program
                                     Handbook. All modifications must       Manager and/or Software Director and
                                     go through the system change request   traced each SCR or PTR identified above
                                     (SCR) process and receive proper

                                                                    112

No.       Control Objectives               Control Activities                          Tests Performed                    Results of Testing
                                  approvals prior to implementation,
                                                                           to the Release Authorization Report to
                                  including emergency changes made
                                                                           confirm it has been approved by the
                                  during business hours. Emergency
                                                                           Software Director.
                                  changes which arise during non-
                                  business hours may be implemented
                                  prior to SCR approval; however, the
                                  change is run through the SCR
                                  process at the start of the next
                                  business day.


       Movement of programs and   13.4.1 DFAS Saufley Field                DFAS Saufley Field                           No relevant exception
13.4
       data among libraries is                                                                                          noted.
                                  The System Administrator manages         Observed the DCPS Librarian to
       controlled.
                                  access rights to the program libraries   understand how the development and
                                  and databases through ACF2. The          production libraries are controlled.
                                  Database Administrator grants access
                                                                           Inspected the access control lists for the
                                  to the appropriate
                                                                           production and development libraries
                                  development/production
                                                                           (directories) to confirm that only
                                  environments through IDMS. IDMS
                                                                           authorized personnel have access.
                                  controls versioning in both the
                                  development and production
                                  environments.


       Use of public domain and   13.5.1 DFAS Saufley Field                DFAS Saufley Field                           No relevant exception
13.5
       personal software is                                                                                             noted.
                                  DFAS workstations and LANs do not        Inspected the DCPS SSAA to confirm
       restricted.
                                  allow any use of public domain           that personal software is restricted.
                                  and/or personal software. DCPS is
                                                                           Inspected a list of approved software to
                                  on the mainframe; all utilities needed
                                                                           confirm such a list exists.
                                  are on the mainframe (which is
                                  DISA-driven).                            Confirmed by re-performance that the
                                                                           control to prevent the use of public
                                                                           domain software is operating effectively.
                                                                           .


                                                                  113

No.        Control Objectives                   Control Activities                         Tests Performed                    Results of Testing



       Changes to the DoD              13.6.1 DISA DECC Mechanicsburg          DISA DECC Mechanicsburg                      No relevant exception
13.6
       information system are                                                                                               noted.
                                       All changes made at DISA SMC-ME         Using the same sample selected for
       assessed for IA and
                                       are captured in the Change              control objective 13.1, obtained the CCB
       accreditation impact prior to
                                       Management System (Change               meeting minutes that included the
       implementation.
                                       Management 2000). Information           discussion of the DCPS changes and
                                       included in each change record is the   confirmed whether management assessed
                                       requested time and date of              the change for IA and accreditation
                                       implementation, the action to occur,    impact.
                                       and justification of the action. The
                                                                               Established whether the changes were
                                       change is then presented to the
                                                                               approved by the CCB and testing has
                                       Change Control Board (CCB) where
                                                                               been completed and approved prior to
                                       the change is assessed for IA and
                                                                               implementation into the production
                                       accreditation impact. The change is
                                                                               environment.
                                       only implemented after approval
                                       from the CCB and testing is
                                       completed and reviewed
                                                                               DFAS Saufley Field
                                                                               Using the same sample selected for
                                       13.6.2 DFAS Saufley Field               control objective 13.1, confirmed that the
                                                                               change record includes the requested time
                                       All changes made are captured in the
                                                                               and date of implementation, the action to
                                       Change Management Information
                                                                               occur, and justification of the action.
                                       System (CMIS). Information
                                       included in each change record is the
                                       requested time and date of
                                       implementation, the action to occur,
                                       and justification of the action. In
                                       addition, all changes are assessed by
                                       the IA Officers.




                                                                       114

No.       Control Objectives             Control Activities                       Tests Performed                   Results of Testing

14     Data Retention

       Data and program backup   14.1.1 DFAS Saufley Field            DFAS Saufley Field                          No relevant exception
14.1
       procedures have been                                                                                       noted.
                                 Data and program backup procedures   Obtained the Business Continuity Plan to
       implemented.
                                 have been established by DFAS        confirm that it specifies the data and
                                 Management                           program backup procedures that have
                                                                      been implemented related to DCPS.
                                                                      Inquired with key personnel that
                                 DISA DECC Mechanicsburg
                                                                      resources are dedicated to the periodic
                                 Data and program backup procedures   backing-up and restoration of data stored
                                 have been established by DFAS        on network share drives.
                                 Management and are included in the
                                 DISA SMC ME Business Continuity
                                 Plan as prescribed in the SLA        DISA DECC Mechanicsburg
                                 between DISA and DFAS.
                                                                      Obtained the Business Continuity Plan to
                                                                      confirm that it specifies the data and
                                                                      program backup procedures that have
                                                                      been implemented related to DCPS.
                                                                      Inquired with key personnel that
                                                                      resources are dedicated to the periodic
                                                                      backing-up and restoration of data stored
                                                                      on network share drives.
                                                                      Inquired how often backups are
                                                                      performed, shipped off site and
                                                                      maintained offsite in a fire rated
                                                                      container.
                                                                      Selected a sample of date’s which
                                                                      occurred during the audit period and
                                                                      obtained the backup logs. Confirmed
                                                                      through inspection that the log is
                                                                      completed based upon the backup policies
                                                                      and procedures.

                                                              115

Section IV: Supplemental Information Provided 

              by DFAS and DISA 





                     117

IV. Supplemental Information Provided by DFAS and DISA
Introduction

DFAS and DISA have prepared this report section and it is included to provide
information DFAS and DISA believes will be of interest to user organization. However,
this information is not covered within the scope or control objectives established for the
SAS 70 review. Specifically, this section includes a summary of procedures that DFAS
and DISA have implemented to enable them to recover from a disaster affecting a Payroll
Office, the TSOPE, or DECC SMC Mechanicsburg.

This information has not been subjected to the procedures applied to the
examination of the description of controls presented in Sections II and III of this
report. As a result, the DoD OIG expresses no opinion regarding the completeness
and accuracy of this information.

TSOPE Specific Business Continuity Plans

The DCPS production support Continuity of Operations Plan (COOP) provides an action
plan to be implemented when a disaster or impending threat would render DCPS
production support inoperable (for example, hurricane, damage to TSOPE facilities due
to fire, etc.). This plan is evaluated and updated on an annual basis and is implemented
locally at each of the established DCPS Payroll Offices. If an impending threat or event
occurs, production support control for DCPS is transferred to an alternate-processing site.
Currently, that site is DFAS Indianapolis, Indiana. The COOP includes the names of
DCPS staff members who will serve as a pool of resources to be mobilized to execute the
plan and a list of documentation and supplies that are necessary to support the mobilized
team.

Team members are composed of DCPS development staff members across many
divisions and branches. TSOPE designates two members of the management team to be
responsible for COOP execution. One is mobilized with the team and is responsible for
team activities and communication with TSOPE while deployed to the COOP recovery
site. The other serves as the team’s liaison at TSOPE and is responsible for relaying
current operational status, current area weather conditions, and other pertinent
information to the mobilized team. The team is further divided into two teams, with each
covering a 12-hour shift. Team leaders are appointed for the respective shift teams. The
DCPS project management staff coordinate and are involved in each step included in
planning and executing the COOP. Although this plan works for any type of disaster
where production support becomes inoperable, it has been successfully executed several
times in the past few years during impending disastrous weather conditions, such as
hurricanes.

DECC Mechanicsburg Business Continuity Plans

To accommodate a major disaster at any major DISA processing center, DISA has
established an Enterprise Business Continuity Program. The DISA plan uses multiple
internal locations and, for mainframe processing, uses the Assured Computing
Environment infrastructure elements located at DECC SMC Mechanicsburg and Ogden.
DECC SMC Mechanicsburg and Ogden is equipped with computational direct access
storage devices, and telecommunication resources necessary to provide a fully functional
host site with the capacity to support a major disaster at any DISA center with mainframe
processing.
                                           119 

The COOP support agreement between DFAS, as the customer, and DISA, as the provider of
processing systems and communications services, describes a process for restoring host-site
processing in the event of a major disaster. The plan also addresses the timely resolution of
problems during other disruptions that adversely affect DCPS processing. The plan, as it relates
to DCPS, details data restoration procedures for the MZF z/OS operating system, the DCPS
Integrated Database Management System, and related mid-tier servers and communication
devices. Replicated data and backup tapes containing incremental daily and complete weekly
backups are rotated offsite to designated locations, on a predetermined schedule, for storage.

The Crisis Management Team at DECC SMC Mechanicsburg is responsible for declaring that a
disaster has occurred and activating the Business Continuity Plan. Once a disaster has been
declared, the Crisis Management Team activates the following response teams: Communications
Team, Recovery Coordination Team, Site Recovery Team, and the Crisis Support Team. Each
team has a specific set of responsibilities defined in the Business Continuity Plan. The contact
information for each individual on each team is also included in the Business Continuity Plan.
The plan is required to be tested on an annual basis. The Business Continuity Plan was tested in
November 2005. TSOPE personnel participate in the yearly COOP exercise to ensure that the
process works correctly and documentation is updated appropriately.

DFAS Indianapolis 592 Report Policies and Procedures

Policies and procedures for performing the 592 Payroll for Personal Services Payroll
Certification and Summary Report reconciliation has not been developed and documented at the
DFAS Indianapolis Payroll Office. DFAS Indianapolis has been using part of the DFAS Denver
Payroll SOP and is developing a uniform DFAS Indianapolis SOP for performing the 592
Payroll for Personal Services Payroll Certification and Summary Report reconciliation as the
office begins processing payroll for additional databases as the Denver Payroll office closes due
to Base Realignment and Closure.

DCPS Password Configuration

The access control software for the environment on which DCPS resides, ACF2 supports
complex passwords; however, complex passwords are not used. DISA and DFAS are in the
process of transitioning the security configuration for the environment to allow for the use of the
complex passwords.




                                            120

    Acronyms and Abbreviations 



ACF2      Access Control Facility 2
ATO       Authority to Operate
BBG       Broadcast Board of Governors
BRAC      Base Realignment and Closure
CAC       Common Access Card
CBT       Computer Based Training
CCB       Configuration Control Board
COOP      Continuity of Operations Plan
CSR       Customer Service Representative
DCPS      Defense Civilian Pay System
DECC      Defense Enterprise Computing Center
DFAS      Defense Finance and Accounting Service
DISA      Defense Information Systems Agency
DITSCAP   Department of Defense Information Technology Security
            Certification and Accreditation Process
DoD       Department of Defense
DoE       Department of Energy
EOP       Executive Office of the President
EPA       Environmental Protection Agency
FSO       Field Security Operations
GCC       General Computer Controls
HHS       Health and Human Services
IA        Information Assurance
IAVA      Information Assurance Vulnerability Alerts
IDMS      Integrated Database Management System
IS        Information Security
ISSO      Information System Security Officer
LANS      Local Area Networks
LPAR      Logical Partition
MAC       Mission Assurance Category
MOA       Memorandum of Agreement
NSA       National Security Agency
OIG       Office of the Inspector General
OLQ       Online Queries
PIIR      Personnel Interface Invalid Report
SAAR      Systems Access Authorization Request
SCR       System Change Request
SLA       Service Level Agreement
SMC       System Management Center

                                     121 

SMO     System Management Office
SOP     Standard Operating Procedure
SRR     System Readiness Review
SSAA    System Security Authorization Agreement
SSN     Social Security Number
STIG    Security Technical Implementation Guide
TASO    Terminal Area Security Officer
TSO     Technology Services Organization
TSOPE   Technology Services Engineering Organization in Pensacola
TSP     Thrift Savings Plan
VA      Veterans Affairs
VMS     Vulnerability Management System
VPN     Virtual Private Network
WBT     Web Based Training




                                    122

Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
   Information Officer
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, National Security Agency
Director, Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accountability Office

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations


                                          123 

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the
Census, Committee on Government Reform




                                               124

Team Members
The Defense Financial Auditing Service, Department of Defense Office of Inspector General, in
conjunction with contract auditors from Acuity Consulting, Inc., produced this report. Personnel
from the Technical Assessment Directorate and Quantitative Methods Directorate, DoD OIG,
also contributed to the report.

Paul J. Granetto
Patricia A. Marsh
Holly Williams
Frank C. Sonsini
Kenneth H. Stavenjord
Donna A. Roberts
Charles S. Dekle
Ernest G. Fine
Mary A. Hoover
Anissa M. Nash
Carl L. Adams
Debra J. DeJonge
Cassie C. Lin
Brian Royer
Kiana E. Silver
Alberto J. Calimano-Colon
